<html>
<title> - THE PRESIDENT'S NEW CUBA POLICY AND U.S. NATIONAL SECURITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






       THE PRESIDENT'S NEW CUBA POLICY AND U.S. NATIONAL SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2015

                               __________

                           Serial No. 114-26

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-534PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                             
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida                 ALAN S. LOWENTHAL, California
TOM EMMER, Minnesota













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Chris Simmons, editor, Cuba Confidential.....................     8
Mr. Fernando Menendez, senior fellow, Center for a Secure Free 
  Society........................................................    13
Jose Azel, Ph.D., senior research associate, Institute for Cuban 
  and Cuban-American Studies, University of Miami................    28
The Honorable Dennis K. Hays, director, The Emergence Group......    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Chris Simmons: Prepared statement............................    11
Mr. Fernando Menendez: Prepared statement........................    15
Jose Azel, Ph.D.: Prepared statement.............................    30
The Honorable Dennis K. Hays: Prepared statement.................    36

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina, and chairman, Subcommittee on the 
  Western Hemisphere: Thomson Reuters article dated February 25, 
  2015, entitled ``Cuba says fast track to restoring ties 
  `depends on U.S.' ''...........................................    70
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida: Letter dated February 24, 2015, to 
  President Barack Obama from Mayor Tomas P. Regalado, City of 
  Miami, Florida.................................................    72

 
       THE PRESIDENT'S NEW CUBA POLICY AND U.S. NATIONAL SECURITY

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2015

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2167 Rayburn House Office Building, Hon. Jeff 
Duncan (chairman of the subcommittee) presiding.
    Mr. Duncan. Okay. A quorum being present, the subcommittee 
will come to order.
    I will start by recognizing myself and then the ranking 
member to present our opening statements, and then we will 
recognize the witnesses as well. So we will go ahead and get 
started.
    In July 1985, President Ronald Reagan outlined Cuba's 
support for terrorism since the 1960s through its actions in 
openly arming, training, and directing terrorists operating on 
at least three continents, in Latin America, Africa, and the 
Middle East. Reagan also cited repeated sanctions by the 
Organization of American States against Castro for sponsoring 
terrorism in places and countries too numerous to mention.
    During this time, Cuba was also hosting a Soviet combat 
brigade, a submarine base capable of servicing Soviet 
submarines, and a military base that Soviet military aircraft 
regularly used. Cuba's actions landed it on the State Sponsors 
of Terrorism list in 1982, and it has remained there ever 
since. President Obama's announcement in December 2014 that the 
U.S. would reconsider the terrorism designation as a part of 
its pursuit of normalized relations with Cuba is deeply 
concerning given Cuba's record on multiple levels.
    I would like to enter into the record at this point an 
article that says--it is, ``Cuba Says Fast Track to Restoring 
Ties Depends on the U.S.,'' and in the article it says that the 
U.S. needs to remove them from the State Sponsors of Terrorism 
list if we are to move forward. So I will enter that in the 
record. Without objection, so ordered.
    Today I want to consider the U.S. national security 
implications of President Obama's Cuba policy shift and 
potential vulnerabilities to America as a result. First, Cuba's 
record of supporting terrorism and violence in the Western 
Hemisphere threatens the U.S. national security interest in the 
region.
    According to the State Department's country reports on 
terrorism in 2013, which was issued in April 2014, Cuba has 
long provided safe haven to members of the Basque Fatherland 
and Liberty, or ETA, and the Revolutionary Armed Forces of 
Colombia, known as FARC, both considered foreign terrorist 
organizations by the United States. Cuba also continues to 
harbor fugitives wanted in the United States through providing 
support, such as housing, food ration, books, and medical care.
    Furthermore, the U.S. fugitives, such as Joanne Chesimard--
and I don't know if I pronounced that correctly--who is on the 
FBI's Most Wanted Terrorism list, remain protected by the Cuban 
Government for their crimes against the Americas.
    In addition, according to the Institute for Cuban and Cuban 
American Studies at the University of Miami, Cuba provides 
intelligence to Hezbollah and Hamas. For instance, Arab Shiites 
Ghazi Nasr Al Dan and Fawzi Kanaan based in Venezuela 
coordinate with the Cuban Government to raise funds for 
Hezbollah and facilitate Hezbollah's travel in the region. 
Likewise, Hezbollah and Cuba, a Hamas-funded Turkish charity, 
operates in Havana and is a member of the Union of Good, an 
entity that financially supports Hamas.
    Second, Cuba's record as a foreign intelligence collector 
and trafficker threatens United States national security and 
the safety of Americans. Overt in its espionage against the 
United States, and in selling U.S. national security secrets to 
other regimes, such as Venezuela and Iran, Cuban intelligence 
services have been described by former CIA Cuban Analyst Brian 
Latell as among the four or five best anywhere in the world.
    In 2002, Defense Intelligence Agency Analyst Ana Montes was 
convicted of spying for Cuban intelligence for 16 years. This 
month, the DIA Director, Lieutenant General Vincent Stewart, 
maintained that foreign intelligence threats from Russia, 
China, and Cuban intelligence services continue to be a 
challenge with Cuban intelligence services remaining the 
predominant counterintelligence threat to the United States 
emanating from Latin America.
    American tourists or businessmen and women who visit Cuba 
could find themselves subjected to Cuban surveillance. By 
staying in hotels, which are run by the way by the Cuban 
military and staffed by Cuban intelligence agents wired for 
video and audio recording, American visitors are prey for Cuban 
espionage.
    In view of this, I believe it is critical that the Obama 
administration fully assess these potentially great 
vulnerabilities to American citizens and its review of Cuba's 
sponsorship of terrorism. Any attempt by the Obama 
administration to delist Cuba without first providing Congress 
with a comprehensive damage assessment of Cuba's 
counterintelligence activities against Americans could invite 
even more Cuban espionage against unsuspecting Americans in the 
future.
    Thirdly, Cuba's relationship with hostile regimes, such as 
Iran, North Korea, Russia, Syria, and Venezuela, threaten U.S. 
national security interests. Cuba is a strong supporter of 
Iran's illicit nuclear program and the Assad regime's brutality 
against its people in Syria. In July 2013, Cuba was caught red-
handed proliferating illicit military equipment, including 
fighter jobs, surface-to-air missile system components, and 
ammunition to North Korea, illegally circumventing the U.N. 
embargo.
    In Venezuela, Cuba has trained pro-Maduro groups who use 
violence against Venezuelan student protesters, and media 
reports in January of this year found that hundreds of Cuban 
military personnel had been stationed in Venezuela. Most 
significant for the U.S. homeland, Cuban-Russian relations have 
continued to deepen.
    In February of last year, 2014, the Russian Defense 
Minister stated that Russia wants to build a military base in 
several countries in our hemisphere, including Cuba. In April 
2014, the U.S. observed two Russian ships operating in waters 
beyond the U.S. territorial seas near Cuba, and press reports 
suggested that the ships were part of a spying operation 
against the U.S.
    Furthermore, in July of last year, Russian President 
Vladimir Putin visited Cuba and forgave 90 percent of Cuba's 
debt since the Soviet period--the largest debt forgiveness 
agreement in Russian history. Now, what is that all about?
    Press reports have also stated that Russia and Cuba agreed 
to reopen the Lourdes base, an electronic listening post, which 
is only 150 miles from the United States coast. Last month, a 
Russian signals intelligence ship made an unannounced visit to 
Cuba on the eve of U.S. talks with Cuba in Havana on restoring 
diplomatic relations. And also, last month, Cuban President 
Raul Castro demanded that the U.S. hand back the U.S. naval 
station in Guantanamo Bay, Cuba, before Cuba and the U.S. could 
attain normalized relations.
    Given Cuba's alliances with unsavory regimes, the U.S. 
national security impact of complying with such brash demands 
would sever the U.S. military efforts in the region. Gitmo is 
the oldest overseas U.S. naval base and only permanent DoD base 
in the region. It is critical for U.S. national security 
interests, and it houses not only the Joint Task Force 
Guantanamo, but also the Homeland Security and State 
Department's Migrant Operations Center. Its location enables 
U.S. forces to maintain strategic operational and tactical 
advantages across a full spectrum of military operations and 
regional security cooperation efforts.
    Fourth, a criminal pipeline from Cuba to Florida threatens 
the United States' national security interest with Cuban 
migrants exploiting U.S. law, stealing from the American 
taxpayer, and paying the Cuban Government to live large off the 
cash in Cuba.
    In January 2015, South Florida's Sun Sentinel published the 
findings of a year-long investigation which showed that crooks 
from Cuba had robbed American businesses and taxpayers of more 
than $2 billion over two decades. Cuba benefits from organized 
crime rings operating in Cuba and the United States.
    For example, in Miami-Dade County, Florida, where 24 
percent of the population was born in Cuba, immigrants from the 
island account for 73 percent of arrests for health care fraud, 
72 percent of arrests for cargo theft, 59 percent of arrests 
for marijuana trafficking, and half of the arrests for credit 
card and insurance fraud.
    However, Cuba exploitation of Americans is not limited just 
to Florida. According to the Sun Sentinel's analysis, over the 
past two decades Cuba natives with addresses in Florida have 
been convicted in 34 states, Puerto Rico, and Washington, DC. 
In addition, a 2012 case showed that a Cuban crime ring stole 
22,000 credit card numbers and then used them to buy 60,000 
gift cards worth $15 million from Walmart stores in 45 states 
and Puerto Rico.
    Some of the convicted individuals learned their illicit 
trade in Cuba before immigrating to the United States, and some 
fugitives who returned to Cuba had to give the government a cut 
of the money benefitting the Castro regime. The investigation 
also found that the Obama administration's recent Cuba policy 
change in loosening U.S. regulation on travel and money to Cuba 
may actually increase organized crime as well.
    This is particularly concerning given the surge in Cuban 
migration in the United States following the Cuba policy 
change. According to the U.S. Coast Guard, Cuban migrant flow 
increased 68 percent from 2013 to 2014, and Cuban migration to 
the U.S. is also much higher thus far in 2015 than it was at 
the same time last year.
    In conclusion, Cuba's role in supporting terrorism and 
violence, conducting foreign intelligence operations against 
the United States, partnering with global bad actors, and 
enabling a criminal pipeline from Cuba to Florida is clear. 
Such a record necessitates that we carefully examine the impact 
that the Obama administration's Cuban policy change may have on 
U.S. national security and Cuba's ability to more easily 
conduct its illicit operations. Today's hearing could not be 
more timely given that U.S. and Cuban officials meet in 
Washington tomorrow to continue discussing reestablishment of 
diplomatic relations.
    With that, I will turn to the ranking member, Mr. Sires, 
for his opening statement. I look forward to a very robust 
hearing today, providing information to Members of Congress, as 
we move forward addressing these policy changes.
    So, Mr. Sires is recognized for an opening statement.
    Mr. Sires. First, let me thank you, Chairman, for holding 
this hearing, and thank all the people that are here today.
    It has been no secret that I have been disappointed and 
concerned regarding the administration plans to loosening 
sanctions, initiating discussion to reestablish diplomatic 
relationships with the Cuban regime. I understand talks have 
just started, but preliminary and secret negotiations were 
taking place for months prior to the President's announcement 
this past December. Neither prior nor since the December 
announcement has the Cuban regime relented its practice of 
restraining the Cuban people and abusing their human rights.
    Just days after the December announcement, Raul Castro 
dispelled any misgiving and declared that the regime would not 
abandon its Communist path, let alone lose any stronghold over 
the Cuban people. And what should have been a joyous moment to 
celebrate the release of Alan Gross was clouded by the actions 
taken by the administration to secure his release.
    I also find that easing of travel and commercial 
restriction was misguided, as it will only boost revenues for 
enabling state-controlled economy, and the administration has 
clearly fell short in failing to secure the return of 
fugitives. Joanne Chesimard, the FBI's number one Most Wanted 
Terrorist, has remained free in Cuba for 30 years after having 
murdered New Jersey State Trooper Warner Foerster and escaping 
to Cuba.
    What is astonishing is that all of--for all the talks of 
additional actions to be taken by the United States, little has 
been said of the steps that the Cuban regime must take. In my 
opinion, far too much has been given already. We need to see 
more concrete measures in terms of human rights, political 
freedoms, and the release of all political prisoners 
permanently, and that is just the beginning.
    And yet for their part Cuban authorities have not only made 
clear that futures such as Chesimard's are off the table, but 
that relations cannot be normalized unless the U.S. lifts the 
embargo, returns Guantanamo, and abandons support of Cuba's 
dissidents that do nothing more than advocate for freedom and 
respect for human rights. If that were not enough, Cuban 
authorities are also insisting on being removed from the State 
Department's State Sponsors of Terrorists list.
    This is a dangerous and concerning action that I feel the 
administration has prematurely conceded to consider. I feel 
that before any consideration is given to removing Cuba from 
the State Sponsors of Terrorists list that Cuba should, for its 
part, return the FBI number one terrorist, Joanne Chesimard, 
alongside the countless U.S. fugitives hiding in Cuba.
    The Cuban regime claims its innocence in regards to its 
designation on the state-sponsored terrorism list, but the 
Cuban regime's actions have been anything but innocent. The 
Cuban regime has a long and sordid history of supporting anti-
U.S. intelligence efforts and colluding with questionable state 
actors like Russia, North Korea, and Venezuela, whose 
governments espouse anti-Americanism and pose a security 
concern to either their neighbors or their own people.
    The U.S. Defense Intelligence Agency has--was penetrated by 
Cuban spy Ana Montes, undetected for an astonishing 16 years 
until detained in 2001. Most recently, in 2013, Panamanian 
authorities seized a North Korean freighter declared to be 
carrying 10,000 tons of sugar from Cuba only to discover a 
hidden cargo of Soviet-made anti-missile system components, 
fighter jet parts, and engines. And in July 2014, a United 
Nations panel of experts determined that both the shipment and 
the transactions between Cuba and North Korea were in violation 
of the U.N. sanctions.
    Trust must be earned. It is not just given. The Cuban 
regime forfeited that privilege over 50 years ago and has done 
nothing since to garner the trust of the Cuban people or the 
international community. While I do not agree with the 
direction our administration has taken in regards to Cuba, I 
implore the United States to proceed with caution and not to 
concede to any of the Cuban's regime's demands until more 
significant steps are taken.
    Thank you.
    Mr. Duncan. I thank the ranking member. The Chair will now 
recognize one of my heroes in Congress and the former 
chairwoman of the full committee, Ms. Ros-Lehtinen from 
Florida, for her opening statement for as long as she wants 
to----
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you for your dedication to freedom and democracy and for 
calling this important and timely hearing. Let me be clear: 
Cuba poses a clear and present danger to the United States. The 
Castro regime undermines our national security at every turn 
and reinforces instability in the entire region by exporting 
the Cuban military and espionage apparatus across the region.
    The ALBA countries have secret security advisors who are 
Cuban nationals. Some ALBA countries even send diplomats 
overseas who are undercover Cuban agents. Cuba is an avowed 
enemy of the United States, and let me cite these bullet points 
just in the recent years that the Castro regime has done. Has 
killed American citizens in the Brothers to the Rescue 
shootdown 19 years ago this week. Has worked with the Russians 
to try to reopen the Lourdes spy facility in Cuba. Has allowed 
Russian spy ships to dock in Havana as recently as just a few 
days ago. Was caught sending arms and military equipment last 
year to North Korea in violation of multiple U.N. Security 
Council resolutions.
    The Castro regime is hiding U.S. fugitives of law and has 
given asylum to Joanne Chesimard, who is considered a Most 
Wanted Terrorist by our FBI. It has given safe haven to 
terrorist groups such as the FARC and ETA, has sent military 
advisors to Venezuela who have caused the deaths of many 
Venezuelans due to the violence perpetrated by the thugs of 
Nicolas Maduro.
    The Castro regime has penetrated our own intelligence 
services with spies working for the Castro regime, like Ana 
Belen Montes and Kendall Myers, had Cuban agents torture and 
beat American POWs at a prison camp in North Vietnam known as 
the Zoo, has sent troops to Angola in 1970s and '80s to further 
destabilize the country and fight alongside leftist movements 
contrary to U.S. security interests, has ties with Iran, with 
Russia, with Syria, and the list goes on, Mr. Chairman, yet all 
of these realities have been ignored by the Obama 
administration.
    Tomorrow, as we have pointed out, the Department of State 
will roll out the red carpet for officials from the Castro 
regime. The lead negotiator for the Castro regime is Josefina 
Vidal, who was a Cuban spy in the United States who was 
actually kicked out, along with her husband, from the U.S. due 
to their illicit espionage activities. And now she is 
negotiating for the Castro regime.
    I firmly believe that the President's concessions to the 
Castro brothers on December 17 pose a real national security 
threat, and here's why. It is well-known that Cuba has one of 
the world's most advanced espionage apparatus, and that 
apparatus is aimed right at our country and here, very much 
active in our nation's capital in Washington, DC.
    We know that Cuba has had spies on the Hill and in many 
U.S. Government agencies, so the President's new policies will 
provide an injection of new money to the regime, millions of 
dollars, and this new money will go straight into the pockets 
of the Castro brothers and the Cuban military, which owns and 
operates the tourist industry in Cuba.
    With this new infusion of capital, the Cubans will be able 
to provide more resources toward their espionage activities 
directed at us. And what will they do with the intelligence 
that they gather? They will sell it to our enemies, to the 
highest bidder on the black market. These are just some of the 
reasons, Mr. Chairman, of why Cuba does pose a national 
security threat to the U.S., and why it should remain on the 
State Sponsors of Terrorism list. The White House must stop 
putting politics ahead of our national security.
    On July 3, 1961, President Eisenhower terminated diplomatic 
relations with Cuba after the Cuban regime decided to expel 
several United States personnel from Havana. President 
Eisenhower responded by stating, and I quote, ``This calculated 
action on the part of the Castro Government is only the latest 
of a long series of harassments, baseless accusations, and 
vilification.'' Eisenhower continued, ``There is a limit to 
what the United States and self-respect can endure. That limit 
has now been reached. Meanwhile, our sympathy goes out to the 
people of Cuba now suffering under the yoke of a dictator.''
    President Obama should learn from history that negotiating 
with the Castro regime is a failed endeavor.
    And with that, Mr. Chairman, I would ask unanimous consent 
to enter into the record a letter addressed to President Obama 
signed by the mayors of the city of Miami, Coral Gables, and 
Doral expressing their opposition to the December 17 accord.
    Mr. Duncan. Without objection.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Mr. Duncan. I want to thank the lady for her comments, and 
I will now--if any other member has an opening statement, just 
in the essence of time we will--okay. I am going to recognize 
the rest of the members for a minute, real quickly.
    Mr. Meeks. Thank you, Mr. Chair. Needless to say, I support 
the President's position and the President's opening diplomatic 
relations with Iran. What we need to look at, since 1960, 1959, 
have the policies that existed for over 50 years, has it been 
successful? Who agrees with us? Which countries? We have got 
allies all over. Has it helped us as members of the United 
States, or has it hurt us? Has it really changed the conditions 
for the people in Cuba?
    And we know that there is a lot of work to be done. I am 
not saying that. We know that with diplomatic engagement there 
is a lot of hard work to be done.
    But I challenge principally the Western Hemisphere. Canada 
doesn't agree with us; they are a strong ally. Colombia doesn't 
agree with us. Brazil doesn't agree with us. Chile doesn't 
agree with us. Peru doesn't agree with us. In fact, they say 
that that is the one thing the United States standing by itself 
has been a hindrance to working with everyone on the Western 
Hemisphere. We need to work collectively together, and in that 
way we can have the change that we are looking for.
    I said yesterday it is difficult when you are trying to 
work in multilateral ways. Doing it unilaterally doesn't work. 
So I am saying let us focus to get the change that we need in 
Cuba, but let us get a policy that works because the policy 
that has been in existence for the last over 50 years has not 
been successful.
    Mr. Duncan. The Chair will now recognize Mr. DeSantis from 
Florida for an opening statement.
    Mr. DeSantis. Thanks, Mr. Chairman. I don't think 1959 is 
as relevant as right now. Does this change benefit the Castro 
regime or the Cuban people fighting for freedom, or the 
American people? I think the answer clearly is this is a 
lifeline for the Castro regime. They may be removed now off the 
State Sponsors of Terrorists list.
    This is a regime, as my colleague from New Jersey said, 
Joanne Chesimard, she is being harbored there. She is on the 
FBI's top 10 Most Wanted Terrorists list. The Cuban Air Force 
officers who have been indicted by the Federal Grand Jury, they 
get medals in Cuba. They are not held to account. They have 
been caught shipping weapons, this regime, to North Korea, one 
of the worst regimes in the entire world.
    And of course the Cuban military and the Cuban regime are 
working with Maduro's henchmen who are repressing the freedom 
fighters in Venezuela. And of course they have offered an 
operational presence in Cuba to Vladimir Putin's Russia. We 
have seen that, obviously, before in the past. So what exactly 
have they done to cause the U.S. to remove it from the State 
Sponsors of Terrorism? Nothing.
    My friend on the other side of the aisle says we need to 
work multilaterally. These are unilateral concessions that this 
regime has done absolutely nothing to earn.
    And I yield back.
    Mr. Duncan. I am sure we will get into some of those 
topics, so let us go ahead and introduce our witnesses. Before 
I do, we are operating on a lighting system that you have in 
front of you. When I recognize you, it will turn green; you 
will have 5 minutes. When there is 1 minute remaining, it will 
turn yellow. That is a warning. And when it turns red, your 
time is up. Please finish your statement, finish your sentence, 
and then we will move on. We are going to try to stay on time 
with four witnesses.
    So without further ado, I will recognize the witnesses. Mr. 
Simmons, for the panelists and for the committee, their bios 
are in our file, and they are made of record. I am not going 
to--I am going to dispense with reading their bios today in the 
essence of time.
    So, Mr. Simmons, you are recognized for 5 minutes.

   STATEMENT OF MR. CHRIS SIMMONS, EDITOR, CUBA CONFIDENTIAL

    Mr. Simmons. Mr. Chairman, thank you for the opportunity to 
testify on the national security threat posed by Cuba. As 
Washington considers a radical change in our relationship with 
Havana, Cuba's world-class espionage operations against us 
demand careful review and deliberation.
    I had the privilege of serving as a counterintelligence 
officer with the U.S. Army and Defense Intelligence Agency for 
over 20 years. With regard to Cuba, I was deeply involved with 
most U.S. counterintelligence successes against Havana from 
1996 through 2004. I was a central figure in the Ana Montes spy 
case, and the lead military official in the 2003 expulsion of 
14 Cuban diplomat-spies.
    Underestimated and misunderstood for more than half a 
century, Havana remains a clear and present danger to the 
United States. It is a national security state, and its miliary 
and intelligence agencies exist solely to ensure regime 
continuity. Its spy services are augmented by a million-member 
neighborhood informant program known as Committees for the 
Defense of the Revolution. These entities combine to give the 
regime an omnipresent intelligence structure that is, on a per 
capital basis, 34 times larger than that of the entire U.S. 
intelligence community.
    Castro's spies also benefit from a narrow focus on just two 
enemies--the Cuban people and the United States. In fact, the 
regime has three separate intelligence agencies arrayed against 
the United States. One of these services, the vaunted 
Directorate of Intelligence, is now ranked fifth or sixth in 
the world.
    Greed, not self-defense, is Cuba's sole motive for its 
espionage efforts against the United States. Havana long ago 
earned the nickname ``Intelligence Trafficker to the World,'' 
for its sale and barter of stolen U.S. secrets. Following the 
breakup of the Soviet Union and the loss of Moscow's $3 billion 
annual subsidy, its auctioning of U.S. classified information 
skyrocketed. Its information brokering is now a key source of 
revenue, earning hundreds of millions of dollars annually in 
goods, services, and cash.
    The administration's current outreach offers five seemingly 
unanticipated consequences, which Havana will exploit as 
catalysts to increase espionage against the United States.
    First, opening Cuba to U.S. travelers will bring a huge 
influx of desperately needed cash to Cuba's intelligence and 
security services that, along with their military brethren, run 
the entire tourism sector as profit-making enterprises.
    Second, this flood of American tourists will provide Cuban 
spies unprecedented access to assess and recruit the next 
generation of American spies. Home field advantage will not 
only provide a secure environment for espionage, but also drive 
down the cost for doing business.
    Third, unrestricted access to U.S. technology will trigger 
significant upgrades in Havana's technical capabilities for 
espionage and repression. No longer will it be encumbered by 
the expense and time delays prompted by circumventing the U.S. 
embargo.
    The fourth benefit will be the end of travel restrictions 
on U.S.-based diplomat-spies. This advantage will eventually be 
further enhanced by the opening of an Embassy, as well as 
consulates and Prensa Latina offices. I will remind everyone 
that when the U.S. broke relations with Cuba in 1961, Havana 
had 28 consulates from coast to coast, and Prensa Latina 
offices and correspondents in half a dozen cities.
    The fifth gain to Cuba is a huge boost in the notion that 
Cuba poses no threat to the United States. This well-
choreographed myth has been aggressively promoted by the regime 
for the last five decades. The advantage the administration 
gave Havana with this new initiative elevates this fairy tale 
to heights Havana could not have achieved on its own.
    I would like to conclude by making a single recommendation 
to the committee. Do everything in your power to degrade or 
defeat Cuba's intelligence operations. Havana's appetite for 
U.S. secrets is voracious, and our failure to counter their 
spying simply fuels their addiction. Expanding relations 
accomplishes nothing--nothing other than to make Cuban 
intelligence more effective, efficient, and profitable than it 
has ever been.
    I hope this hearing will help educate all parties as to the 
high costs of ill-advised outreach. I am grateful for the 
opportunity to be here today, and I look forward to the 
question and answer period.
    [The prepared statement of Mr. Simmons follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. I thank the gentleman for his comments.
    Mr. Menendez is recognized for 5 minutes.

STATEMENT OF MR. FERNANDO MENENDEZ, SENIOR FELLOW, CENTER FOR A 
                      SECURE FREE SOCIETY

    Mr. Menendez. Thank you, Mr. Chairman, Ranking Member 
Sires----
    Mr. Duncan. Just pull that mic just a little bit closer to 
your mouth, and it will make it easier. Thanks.
    Mr. Menendez. All right. Thank you, Mr. Chairman, Ranking 
Member Sires, and distinguished members of the committee. It is 
an honor to be here and to be asked to share my analysis with 
you this morning. I will give a little bit of context in my 
analysis on three issues--economic changes in Cuba, political 
changes, and national security implications of Cuban efforts.
    Mr. Chairman, of events in Cuba, it can be safely said that 
the more things change, the more they stay the same. 
Economically, while Cuba has undertaken a number of reforms, 
the efforts reflect chronic problems and the inability of the 
command economy to meet the needs of its population. The 
urgency of this open secret was made public when Raul Castro 
declared in 2010 that either we change or we sink.
    The reforms, however, are limited, slow, tentative, 
reflecting internal differences among the ruling circles about 
their desirability. What remains the same, however, is the 
military's control, as others have mentioned, of the $3 billion 
a year tourism industry. This helps explain why inflows of 
foreign investment, trade, and currency from Canada, the 
European Union, and countless other numbers--other countries 
have not resulted in generalized prosperity for the majority.
    Politically, in Cuba, there is an existential crisis 
combining the physical disappearance of the historic leadership 
and the emergence of a new generation of leaders. While the new 
leaders are the product of the last 50 years, they lack 
significant experience in making unsupervised decisions and 
policy. If, and when, they consolidate their power, the 
question will remain whether they will follow the current 
course or begin to respond to the aspirations of a new 
generation of Cubans who, unlike their parents, are not 
prepared to sacrifice their lives for a utopia that will never 
come.
    What remains the same is that when Raul Castro responded to 
U.S. and treaties to normalize relations, he appeared in 
military uniform, making it unequivocally clear who remains in 
charge. Through its alliances with Venezuela and the other ALBA 
countries, Cuba has gained considerable legitimacy by 
establishing, hosting, and presiding over CELAC, the Community 
of Latin American and Caribbean States, remarkable by its 
absence of Canada and the United States.
    Meanwhile, Cuban intelligence and security apparatus have 
projected themselves across the Americas. For instance, through 
ALBA, they have designed--Cuba has designed the biometric 
information system of several countries. In our Canada On Guard 
Report, which is entered into the record, we site an 
unclassified document from the Canadian Border Security Agency 
showing that at least 173 cases of Venezuelan passports were 
issued to Middle Eastern nationals to circumvent Canada's 
immigration system. these 173 are merely the ones that we know 
about. In the current global climate, these types of activities 
present a clear and present danger to U.S. national security.
    Cuba continues, whether through diplomatic or other means, 
to pursue its objective of shifting the balance of power in the 
Americas. This is being facilitated because in the Americas, 
Mr. Chairman, the United States is visible by its absence.
    Thank you.
    [The prepared statement of Mr. Menendez follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. I thank the gentleman, and the Chair will 
recognize Dr. Azel.

   STATEMENT OF JOSE AZEL, PH.D., SENIOR RESEARCH ASSOCIATE, 
 INSTITUTE FOR CUBAN AND CUBAN-AMERICAN STUDIES, UNIVERSITY OF 
                             MIAMI

    Mr. Azel. Thank you, Chairman Duncan, Ranking Member Mr. 
Sires, my hometown representative Dr. Ros-Lehtinen. 
Distinguished members of the committee, I am honored to have 
this opportunity to share my analysis on the U.S. national 
security implications of the administration's new Cuba policy, 
and I commend you on calling this hearing on what is often a 
misunderstood threat to our national interest.
    Last year, when The New York Times editorial board and 
others intensified their campaign for a unilateral, 
unconditional change in U.S.-Cuba policy, I published an essay 
titled ``WWCD.'' That is, What Would Castro Do, if the United 
States were to unilaterally and unconditionally end economic 
sanctions?
    I argued then that not probing how Castro would respond was 
an irresponsible omission, since the formulation of U.S. 
foreign policy is often compared to a chess game in which every 
prospective move is analyzed with an eye to what the 
adversary's countermove would be. A foreign policy move always 
seeks reciprocity.
    General Raul Castro has now provided a comprehensive answer 
to my, ``What Would Castro Do?'' question. On the 28th of 
January, speaking in Costa Rica, General Castro set his 
demands. Before the two nations can reestablish normal economic 
relations, the United States must: 1) unconditionally eliminate 
all economic sanctions; 2) return to Cuba the Guantanamo U.S. 
naval base; 3) stop all the transmissions of Radio and TV 
Marti; 4) compensate Cuba for the supposed damages caused by 
the embargo, which Cuba now estimates at $116 billion and 
counting; and 5) eliminate Cuba from the U.S. State Sponsors of 
Terrorism list.
    The General declared, ``If these problems are not resolved, 
this diplomatic rapprochement would not make any sense, and it 
would not be ethical or acceptable to ask Cuba for anything in 
return. Cuba will not negotiate on these internal matters which 
are absolutely sovereign.''
    With the General's impossible preconditions now known, 
advocates of unconditional concessions to the Castro regime 
will likely double down and begin spinning all sorts of 
dangerous arguments as to why we should stay the course. We 
will hear perhaps that, ``Well, General Castro was just laying 
out a starting negotiating position or that, since we have 
tried economic sanctions for so long, should we not give this 
new policy some time?''
    And much more troubling, we may even begin to hear 
arguments that Cuba may indeed be entitled to compensation from 
U.S. taxpayers, or that the naval base in Guantanamo is an 
unnecessary and expensive relic of the Cold War. Distinguished 
members, when you hear these arguments, just consider for a 
moment how Mr. Putin and the Russian navy would love to have a 
warm water port in the Caribbean of the quality of our 
Guantanamo naval base.
    Consider, also, that if we further remove travel 
restrictions, thousands of small private vessels from South 
Florida will begin visiting Cuba on a regular basis and may 
return with hidden cargo. We can all use our imagination as to 
the nature of the cargo, whether drugs, contraband goods, or 
human trafficking. Our overstretched Coast Guard would not be 
able to effectively monitor thousands of private vessels 
traveling regularly between Cuba and South Florida.
    Given the long-standing and close links between Cuba and 
Iran, this ocean travel possibility exposes our border security 
to new and serious vulnerabilities to terrorism and contraband. 
Moreover, the President's new measures will enrich primarily 
the Cuban military and will not impede General Castro's close 
alliance with Iran, Russia, or Venezuela. It is hard to discern 
how fortifying a totalitarian government promotes democracy.
    The new Cuba policy has legitimized the Cuban regime in the 
eyes of the world. By sanctioning an oppressive regime that 
violates human rights with abandon, the President has reversed 
our long-standing support for democratic governance in Latin 
America.
    The gratuitous normalization with an oppressive military 
dictatorship sends the wrong message to the continent. Every 
Latin American would-be dictator now realizes that suppressing 
civil liberties in their countries is not an impediment to 
having a good diplomatic and commercial relationship with the 
United States.
    Contrary to the argument of some that the new policy will 
help improve relations with Latin America, our implicit seal of 
approval over military dictatorship further weakens American 
influence and prestige in the region. It encourages anti-
American leaders everywhere to take positions inimical to U.S. 
interests as Cuba has done for decades. One unfortunate visual 
the new policy has conveyed is that taking American hostages 
can be very rewarding.
    Thank you.
    [The prepared statement of Mr. Azel follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. Thank you, Doctor.
    And, Ambassador Hays, let me thank you for your service and 
recognize you for 5 minutes.

   STATEMENT OF THE HONORABLE DENNIS K. HAYS, DIRECTOR, THE 
                        EMERGENCE GROUP

    Mr. Hays. Thank you, Mr. Chairman. I would like to thank 
you and the members of the committee for a chance to appear 
before you today. With your permission, I would like to submit 
my written statement and then perhaps summarize the points in 
it.
    One of the key issues that I believe has come up is is that 
a lot of this was developed through the process of secret 
negotiations. I have some experience with secret negotiations, 
and certainly with respect to Cuba I can say that we are very 
bad at them. And we are bad at them not because we don't have 
skilled negotiators who have good intentions, but rather that 
the very dynamic of secret negotiations, particularly those 
conducted over a length of time, reach the point where the 
purpose is to reach agreement rather than specifically what is 
in the agreement. And I think this dynamic is certainly played 
out.
    Secondly, Cuban negotiators tend to be very professional, 
very knowledgeable. They can even be very charming, but they 
are also extremely focused. My experience in negotiating with 
the agents or representatives of the Cuban regime is is they 
have a great focus. Their concern is what is it that we can 
give to them, not necessarily what it is that they would give 
to us or do for us along this way.
    In my diplomatic training, I was told always to look at 
intentions and capabilities. In many countries, it is difficult 
to determine what intentions are, because there are multiple 
sources of information and power along the way. That is 
certainly not the case with Cuba. For over 50 years, there has 
been a very clear intention, which is to harm the United States 
in every way that it is possible. This is done both through 
public statements, including those that my colleagues have 
mentioned made in the last few days and weeks, and it is also 
with respect to the--to the actions that have been taken and 
continue to be taken at this time.
    In addition to intentions, you also have to look at 
capabilities, and here I think there is an interesting point. 
There is a clear pattern over the years. When the Castro regime 
has resources, it tends to be more active in advancing its 
goals to the detriment of us. But when it has fewer resources, 
it is not able to do this. We are all aware that during the 
time of the special period in the early '90s when the Russian 
subsidy stopped, also the Cuban foreign adventurism was reduced 
considerably, and there also were the first economic reforms 
that have taken place in Cuba, things like the farmers' markers 
and the very beginning of some small businesses.
    Fidel Castro at that time said he was doing this because he 
was forced to do it, not because he wanted to. As soon as 
additional resources began to flow in from other sources, these 
economic reforms were pulled back and the individuals were 
denied the opportunity to continue to grow and contribute to 
their country.
    I think an important point here is to look--when you look 
at our embargo, and what is it embargoes do with totalitarian 
regimes? They deny those regimes unearned resources. It is a 
different dynamic that you get when you have an embargo against 
a more democratic country where you have a population that 
feels pressure perhaps and is able to reflect that pressure 
upward to their political leadership. In a totalitarian 
society, that does not exist.
    The purpose of an embargo is to deny unearned resources to 
a malevolent regime. And I think that is what our embargo was 
designed to do, and I think it is what it continues to do.
    You know, it is almost amusing to see the statements that 
have come out in the past few days, particularly with respect 
to Cuba's place on the list of Sponsors of Terrorism. I saw 
yesterday there was a report out that it is on to us in order 
to address this and to remove them from the list of terrorism 
before we can go further with diplomatic relations.
    So we have a situation where we have something that they 
want, which is to get off the list, and we have something else 
that they want, which is to have full diplomatic relations with 
us. So everything is what they want; nothing has been addressed 
with respect to the issues that we have raised. Members of the 
panel and yourself, sir, have raised a lot of these, everyone 
from Joanne Chesimard to the actions that are taking place, the 
agents that are in Venezuela, and down the line.
    And on this, you know, having sort of a focus on Latin 
America, I follow these things relatively closely. One thing 
that we have not seen, particularly as this rapproachment has 
come along, is any indication that our friends and allies in 
Latin America will step up to the plate and condemn the 
actions, not just in Cuba but also in Venezuela that are taking 
place at this time.
    I think it is important that we stand fast and strong. Our 
natural ally in Cuba is the Cuban people, the Cuban dissidents, 
the ones who are prepared to put their livelihoods and even 
their lives on the line in order to advance the cause of 
freedom. Cuba will be a great friend and neighbor to the United 
States again, but it will not be a good friend and neighbor 
until the Castro regime is removed, and we give the Cuban 
people a chance to express their will.
    Thank you very much.
    [The prepared statement of Mr. Hays follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. I want to thank the gentlemen. Excellent. 
Apparently, it is obvious that you guys have studied the Cuba 
issue a lot more than elements within the administration. You 
bring a very concise message to this committee, and it is much 
appreciated.
    I have a message for Raul Castro in Cuba. You can get off 
the State Sponsors of Terrorism list if you quit sponsoring 
terrorism, if you quit providing illicit arms to North Korea 
outside of the embargo. You could probably have normalized 
relations with the United States if you allowed more economic 
freedom, personal freedom, freedom of religion, freedom of 
speech, for the people of Cuba. Make some reforms. We got 
nothing out of this deal that benefitted the Cuban people.
    I asked Secretary Kerry yesterday, ``Is the State 
Department and the President going to remove Cuba from the 
list?'' He said, ``We are reviewing it.'' Staff talked to their 
staff. Looks like it may be that June is a target date for 
that. We are not going to give Guantanamo Bay back, not as long 
as I have a vote in the United States Congress, and I think my 
colleagues do as well.
    I am fearful that we just won't make the lease payment 
because it is a leased property, at a very affordable lease 
rate if you know what the lease is. Whoever negotiated that 
deal needs to negotiate more on behalf of the United States of 
America.
    This is a strategic base for the United States, but we 
don't want to give that back to Cuba. They can turn around and 
give it to the Russians to have a warm water port in the 
hemisphere. That would be wrong. I want to see more freedom and 
economic opportunity, economic freedom, more freedom of speech, 
more involvement in self-governance for the Cuban people. Those 
are things--those are ideals and the principles that Americans 
adhere to. That is what we would love to see for the Cuban 
people.
    We see nothing out of the Obama administration for the 
Cuban people. The economic benefit they may get is maybe some 
artwork purchased on the street by American tourists, but every 
other economic transaction benefits the Castro regime. It is a 
national security issue that is the emphasis of this hearing 
today.
    We have got the Lourdes base, which is an intelligence-
gathering base in Cuba, 150 miles off our shore. To your 
knowledge, Mr. Simmons, has the U.S. ever conducted a 
comprehensive damage assessment of the Cuban espionage against 
the United States?
    Mr. Simmons. To the best of my knowledge, every damage 
assessment is done on a case-by-case basis. For example, with 
Ana Montes or Kendall Myers, I am not aware of any 
comprehensive look back over the last 55 years.
    Mr. Duncan. Do you agree with my assessment earlier that 
Americans could be targets of espionage should they travel to 
Cuba and stay in military-owned intelligence-operated hotels?
    Mr. Simmons. I disagree with the word ``could.''
    Mr. Duncan. Thank you. I take it as they will.
    Mr. Simmons. Absolutely. As I indicated in my statement, 
for several years now, essentially 20 years almost, since the 
end of the Soviet aid, the Castro brothers have allowed the 
intelligence and military services to run the tourism sector as 
a profit-making enterprise, one in which they are now allowed 
to recycle part of the earnings into their own intelligence 
budgets.
    So every tourist that says at the Hotel Nationale or any 
other entity in Cuba not only pays for the spying against them, 
but allows repression to increase to levels that were not 
previously achievable.
    Mr. Duncan. Thank you. So do you believe that more 
Americans could possibly be recruited to spy for Cuba as a 
result of this policy shift? And we had the DIA agent that I 
mentioned in my opening statement. Do you think more Americans 
could be recruited?
    Mr. Simmons. I think opening diplomatic relations with Cuba 
means open season for espionage operations. It also 
incentivizes what has already been a cash cow for the Castro 
regime, drives down the cost of espionage, and gives them 
access throughout the United States, which they haven't had 
in--since 1961.
    Mr. Duncan. You know, there is a lot of outage within the 
American people and with Members of Congress on both sides of 
the aisle to Edward Snowden's release of security intelligence 
to Russia. Who would the Cubans possibly give intelligence that 
they gathered from Americans to?
    Mr. Simmons. We know historically they have provided 
information to Russia, China, North Korea, Haiti, any nation 
that has something to offer in trade, whether it is cash or 
quarterly weapons shipments from China.
    I think a more recent example, if I may, I recently became 
aware that Cuba ran a long-term penetration of the National 
Reconnaissance Office until 2012. I have confirmed this with 
the Federal Bureau of Investigation. The Director of National 
Intelligence has taken--failed to answer my queries. What I 
found out from the Air Force, that this long-term penetration 
was briefed by Master Sergeant Tessa Fontaine to the Director 
of National Intelligence, and the case apparently ended shortly 
before our secret negotiations began.
    Given Cuba's total absence of a satellite reconnaissance 
program, my question to the committee would be: Who were they 
selling that information to?
    Mr. Duncan. Right. Yes, thank you. I agree. I want to point 
to something in the remaining time I have got that Dr. Azel had 
in his opening statement, that General Castro is making demands 
on the United States for normalized relations. And you say 
that--and this is from General Castro, unconditionally 
eliminate all economic sanctions, return Cuba the Guantanamo 
Bay naval base, stop all transactions of Radio Free American, 
Radio-IV Martin, compensate Cuba for supposed damage caused by 
the embargo, which Cuba estimates at $116 billion, and that 
number is growing. Who knows what the number will be? And 
eliminate Cuba from the U.S. State Sponsors of Terrorism list. 
Those are his demands on the United States.
    The demands that the United States made on Cuba--can you 
answer that question? What demands did the United States make?
    Mr. Simmons. None that I am aware of, and that is why this 
unconditional unilateral--is what I really fear we are doing, 
is not asking anything in return. And, unfortunately, I suspect 
that we may begin to hear some arguments that, again, you know, 
maybe the U.S. naval base is not that important or, yeah, maybe 
Cuba is entitled to some compensation, and the like. And that 
is really my fear going forward.
    Mr. Duncan. Spot on. My time is up. I am going to yield to 
the ranking member, and I will look forward to the second round 
of questioning.
    Mr. Sires.
    Mr. Sires. Thank you. You know, one of my disappointments 
is being that I always felt that the embargo was a pressure 
point on Cuba, and that we would take the embargo off when we 
get some concessions, especially concessions that led to a free 
economy where people could move ahead, where people could have 
free elections, where you could have actually freedom of the 
press.
    But, you know, as I looked over the years, Cuba has dealt 
with its economy with every other country just about, and they 
have made big investment in Cuba, people like Italy, countries 
like Italy, Canada. But, you know, the more I read is those 
countries have pulled out of some of these deals. Can you talk 
a little bit about that? I know Italy closed its hotels and 
some of the deals that they made with Cuba. Also, some of the 
countries invested in trying to find oil. They walked out of 
Cuba. And, in some cases, the Cuban Government just took over 
the businesses. Can you talk a little bit about that, Dr. Azel?
    Mr. Azel. Yes, certainly. A couple of years ago, I believe 
I was hosting--speaking at a conference of venture capitalists 
that had flown to Miami, and they were very interested in 
looking into Cuba. When I mentioned that just that week the 
Cuban Government found itself completely short of cash and took 
over all the bank accounts of foreign companies in Cuba, just 
took over all the bank accounts. Period. It is amazing what a 
government like the totalitarian regime can act arbitrarily at 
any given time and just take over bank accounts in that 
particular case.
    Cuba has a history of not paying its debts. That is one of 
the reasons why we see Cuba in this kind of a situation. And 
some of these companies that are having adversity in Cuba are 
pulling out simply because you have to do business with a 
totalitarian regime in which the regime will be a majority 
shareholder, for example.
    The Cuban Government, the Cuban military, will have to own 
51 percent of the company. Just one of the drawbacks, for 
example, those companies cannot hire their own employees. They 
have to request the employees from the Cuban Government. The 
Cuban Government will then send the employees. Interestingly 
enough--and this in my mind is a form of slavery--the Cuban 
Government will pay the employees about 3 percent of what the 
companies are actually paying the Cuban Government. And the 
Cuban Government retains 97 percent of the salaries of the 
employees working in Cuba.
    Mr. Sires. So I would think that if any company wanted to 
invest in Cuba from this country, some of those things have to 
change.
    Mr. Azel. Oh, absolutely. And perhaps most important of all 
you would have to have an independent judiciary that can 
adjudicate claims. Cuba, of course, does not have anything near 
an independent judiciary and will act capriciously and 
arbitrarily at any given time it chooses.
    Mr. Sires. But this is not the first time that Cuba has 
just arbitrarily taken over bank accounts. I remember when I 
lived there that one of the things they did was that, and they 
just gave people X amount of money, but they took everything 
else that was in the bank for the government. So this is a 
pretty common practice, but it----
    Mr. Azel. It has, and it was done actually by Fidel Castro. 
Shortly after the collapse of the Soviet Union, he reversed all 
the changes he had produced at that time. So, yes, this is 
their pattern.
    Mr. Sires. I was just wondering, Mr. Simmons, how much 
influence do you think the Cubans have in Venezuela currently?
    Mr. Simmons. I believe it is fair to say Cubans are running 
Venezuela.
    Mr. Sires. How many people do you think--how many Cubans do 
you think are in Venezuela running Venezuela?
    Mr. Simmons. The estimates I have seen range in the several 
thousands.
    Mr. Sires. And, Ambassador, I guess you experienced 
negotiating with the Cuban Government was, how can I say, very 
enlightening. Do you think we are prepared to negotiate with 
the Cuban Government now?
    Mr. Hays. Well, sir, I think it is always an issue is is 
that you have one side, the Cuban side, which is extremely 
focused on a certain set of results to come. And that set of 
results is that they are more than happy to take anything we 
give them, but they do not give anything back in return. And I 
can tell you from personal experience that is very frustrating 
when you are trying to--the whole idea of a negotiation is you 
reach agreement with somebody by giving a little and getting 
something back.
    In the absence of that, and what I fear, is there often is 
a case--I think as some of my colleagues mentioned--is that 
over time you justify, in fact, giving the other side what they 
want, and you don't ask for something in return.
    Mr. Sires. They were currently negotiating with the 
European Union, and basically when they got what they wanted 
they just walked out of the negotiations. There is no 
negotiation going on now with the European Union, is there?
    Mr. Hays. Not to my knowledge.
    Mr. Sires. But they did walk off the----
    Mr. Hays. This is--I mean, there is not just a pattern, I 
mean it is an actual process that they go through. And, again, 
for 50 years I think the United States has been prepared to 
have some kind of discussion with the Cuban Government, but it 
has to be on terms of having something where our interests are 
protected in advance, not just their interests.
    Mr. Sires. This is my concern, that they are going to say, 
``Look, we are negotiating. We have come to an impasse with the 
United States. I think there is no more negotiations to be 
had.'' This is my concern, that we are going to end up holding 
the short end of the stick sort of.
    Mr. Hays. Yes, sir. As I mentioned, if the goal is to have 
an agreement, and it doesn't matter what that agreement is, you 
can always get there. But if you care about what is in the 
agreement, you need to be very careful.
    Mr. Sires. Thank you. Thank you.
    Mr. Duncan. I want to thank the ranking member. I think 
what he is trying to say is past performance predicts future 
results.
    The Chair will recognize Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and 
thank you for your testimony, gentlemen. I am going to ask a 
series of questions. You won't have enough time to answer, but 
in the second round we will get around to that.
    I am just reading about this interesting Jay Weaver story 
in the Miami Herald that appeared yesterday, and it talks about 
this incredible enterprise that the chairman cited about 
laundering--this case was laundering $238 million in dirty 
Medicare dollars from Florida into Cuba's banking system and 
how--and, by the way, this money was funneled as remittances. 
And, you know, part of the changes that the President has made 
is allowing remittances to be used through--be sent through a 
general license, non-family members, complete strangers.
    So there is going to be even less scrutiny paid to a lot of 
this money laundering. And if we are cutting Medicare, you just 
need to look at South Florida and find out who is responsible 
for a lot of the money not getting to your parents and your 
grandparents. And I will ask you to comment on that.
    But, Mr. Simmons, thank you so much for your great service 
to our country, 20 years in the U.S. Army and DIA. And I was 
wondering if you could elaborate on Ana Belen Montes, because 
for many folks that is history that they just don't even 
remember who she was, this high intelligence--high-level 
intelligence officer who was spying for the Castro regime and 
is now serving a sentence in our prison. She pled guilty 
because the evidence was overwhelming.
    If you could remind us of who she was, why it was important 
to catch her, what impact she has had in many of the studies 
that have been given to Congress about whether the Castro 
regime poses or does not pose a threat to national security.
    And, Dr. Azel, welcome back to our committee. It is 
wonderful to recognize someone who is one of our professors in 
my alma mater, the University of Miami. Go 'Canes. And I was 
wondering if you could put Cuba in a regional context. The 
administration likes to say that everyone in the region 
supports their initiative, but they forget to mention that the 
same countries are so afraid of the Castro regime and its 
ability to export chaos and unrest in their countries.
    And Mr. Sires was talking about that, instead of the 
administration caring so much about this failed policy and how 
it will benefit the region, don't you believe that this new 
initiative is really sending a message to our allies in the 
region that we no longer rate democracy as high. We no longer 
care so much about the rule of law, human rights, as highly as 
we used to, because now we have broken all of that and said, 
``Everything is fine. Everything is fine in Cuba.'' And is that 
message not detrimental to U.S. interest in the region long 
time?
    And, finally, Ambassador Hays, thank you as well for your 
distinguished career in the Foreign Service. I wanted to ask 
you about your time in the important post as Coordinator for 
Cuban Affairs. It is my understanding that you left the 
position due to some disagreements with the Clinton 
administration regarding Cuban policy. Can you please describe, 
if you might, why you left, what objections you had with the 
Clinton administration on Cuban policy.
    And we will start with you, and I know we won't have enough 
time, but we will have a second round, the chairman says, and 
then you can elaborate. I don't want to take up a whole lot of 
time.
    Mr. Simmons. Thank you. Having spent 6 months debriefing 
Ana Montes, there is no way in under a month I could accurately 
assess everything she did. Let me suffice to say that in the 16 
years that she spied within the Defense Intelligence Agency--
and, actually, to precede that, she was directed into the 
Defense Intelligence Agency by Havana. She initially worked 
Central America where she worked against our operations in 
Central America.
    During our secret war in El Salvador, she was pre-briefing 
every Special Forces team that went down range with the intent 
of warning Cuba and the FMLN Guerrillas where Americans would 
be and the exact times. In 1987, she actually visited the 
headquarters of El Salvador's 4th brigade, which was overrun a 
month later and a Green Beret sergeant was killed in what was 
then the largest attack of the war.
    And while I am not saying she was the only agent that the 
Cubans had, we know they had agents on the camp. I think that 
goes to show the height of Cuba's arrogance when they would 
send one of their--an agent we believe was ranked in their top 
10 to one of our biggest allies, and then overrun their camp 4 
weeks later.
    She was also tasked by Havana to provide warning on the 
Panama invasion. We know at the time of her arrest she was to 
be moved over to the Afghanistan Task Force where she would 
have compromised operations again. And it was the decision of 
the leadership to arrest her before she could put any more 
American lives at risk.
    We also know that after her arrest the Russians sent 
essentially a letter of sympathy to Cuba for the loss of such 
an important asset.
    Ms. Ros-Lehtinen. And if I could--what connection did she 
have with Congress? Did she have anything to do with writing 
reports and briefing Members of Congress about the threat or 
non-threat that the Castro regime poses?
    Mr. Simmons. Absolutely. For much of her time within the 
agency, when she became head of the Cuban Political and 
Military Affairs, she essentially became the lead Cuba analyst 
for the entire intelligence community. So not only did she help 
turn on and turn off U.S. collection against Cuba, in many ways 
she helped shape U.S. intelligence policy against the island.
    Ms. Ros-Lehtinen. Are her reports still----
    Mr. Simmons. Posted online----
    Ms. Ros-Lehtinen [continuing]. Posted?
    Mr. Simmons [continuing]. At the Pentagon? Yes, ma'am.
    Ms. Ros-Lehtinen. Thank you. Thank you, Mr. Chairman. I 
know I am out.
    Mr. Duncan. Thank you for your leadership.
    I will now go to Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. Let me first ask--I 
guess I will ask the Ambassador. Is diplomacy easy or hard?
    Mr. Hays. I am sorry? Say that----
    Mr. Meeks. Diplomacy. You believe in diplomacy, I----
    Mr. Hays. Oh, yes, sir. Very much so.
    Mr. Meeks. And is that easy, or is it hard?
    Mr. Hays. Sometimes a little of each.
    Mr. Meeks. Okay. But it is essential, isn't it? Because 
what I want to do first of all, let the record be clear--and I 
want Congress to end the embargo, but the President can't end 
the embargo, so we are not talking about the embargo here. That 
only can be done by Congress.
    Mr. Hays. Yes, sir.
    Mr. Meeks. We are talking about diplomacy.
    Mr. Hays. Correct. Yes, sir. Well, I think the key of 
diplomacy is is you have individuals who then have an 
understanding of the history, the culture, the political 
pressures, the desires of the people that you are talking to 
and negotiating with. So, with that, you have a chance to----
    Mr. Meeks. So should we end diplomatic relationships with 
China?
    Mr. Hays. No, sir.
    Mr. Meeks. Should we end, even though we are in the middle 
of this right now, diplomatic relationship with Russia?
    Mr. Hays. No, sir.
    Mr. Meeks. And if all of the information that I am hearing 
thus far about our national security is because Cuba could give 
something to Russia, who has the most technology, would you 
think that--does Russia have more spy technology than Cuba? 
Does China have more spy technology than Cuba?
    Mr. Hays. Well, in all of these instances, I think the 
United States has an obligation to protect its own interests 
and to do so as it is appropriate. And I would never say that 
we do not have discussions and negotiations with, say, the 
Cuban Government. What I am saying, though, is that it would be 
very----
    Mr. Meeks. So what we should have, then, is some form of 
diplomatic relationships as generally is done through 
Ambassadors, so that we could try to talk and work things out 
with countries that we have good relations with and countries 
that we have bad relations with. We would have diplomatic 
relations right now if those individuals--talking those 
through.
    In fact, even as we go through all of the negative aspects 
with Russia and the Ukraine right now we still have a Russian 
Ambassador in the United States, and we still have an American 
Ambassador talking to Russians, don't we?
    Mr. Hays. Yes, sir.
    Mr. Meeks. Okay. Now, the Cuban people--let me just ask 
this, and I will ask Mr. Menendez, because he hasn't said much, 
since 1961, to date, has the conditions for the people of Cuba 
improved?
    Mr. Menendez. No, they have not.
    Mr. Meeks. They have not. So the conditions of the 
individuals in Cuba from 1961 until the year of our Lord 2015 
is exactly the same.
    Mr. Menendez. No, it is worse.
    Mr. Meeks. It is worse. What have our policies changed 
since 1961 until 2015? Has it changed? Has our policy to Cuba 
changed?
    Mr. Menendez. Our policy has not changed.
    Mr. Meeks. It has not changed. So, therefore, wouldn't it 
be logical to say that we have had one policy and nothing has 
changed, that that policy then was unsuccessful. It did not 
work to the benefit of the people of Cuba, because their 
conditions have not changed.
    In fact, based upon your testimony, given what our policy 
has been, et cetera, it has even gotten worse. So does that not 
also say that if something--and the chairman said past 
performance shows future results. So our past performance 
also----
    Mr. Menendez. May I----
    Mr. Meeks [continuing]. Has shown that--I will give you a 
chance.
    Mr. Menendez. Okay.
    Mr. Meeks. But shows that we have done this repeatedly, 
over and over again, and it hasn't worked in over 50 years. And 
so then that shows that the results probably will be, if we 
continue to do the same thing with nothing changing, that the 
result will be the same. We will--there will be nothing that 
has changed for the people of Cuba who are living in Cuba.
    Let me just go to this, because I don't know whether you 
have or not, but I know I have visited Cuba several times, the 
last time about 5, 6 months ago. I have had the opportunity to 
walk the streets freely and just stop people who didn't know 
that I would stop them and ask them whether or not they think 
that the policy of the United States toward Cuba--and they did 
not ask them in regards to the embargo and diplomacy. The 
President is only talking about diplomacy because that is the 
only thing he has jurisdiction over.
    I stopped some young people, et cetera, and they told me 
they don't understand why we still have this policy, that it 
hasn't worked, and that we should change it. If you talk to the 
people that are living in Cuba, as I did, you know, just not--
just stopping folks, not someone that told me that I had to 
talk to this individual or that individual.
    So as I deducted from my visits and trying to talk to 
people, same thing I have done in other places, is to ask the 
people that were living there what did they think about our 
policy. Many of them, they object to the regime and a number of 
the things that has taken place there. But they want the policy 
to change.
    Mr. Duncan. The gentleman's time has expired.
    The Chair will recognize Mr. DeSantis for 5 minutes.
    Mr. DeSantis. Well, thank you, Mr. Chairman. You know, the 
fact that things haven't ``changed'' for the Cuban people, or 
have even gotten worse under the embargo, to me that is an 
indictment on the Castro regime. Why have they not changed? Why 
is life so miserable for those people in Cuba?
    And guess what, Mr. Menendez? There is a world-wide embargo 
on Cuba, is that why? So do they trade with all these other 
countries?
    Mr. Menendez. They trade with practically every country on 
the planet.
    Mr. DeSantis. And the money that goes into that country, 
does that go to the pockets of the Cuban people, or does that 
go to the military and to the regime?
    Mr. Menendez. Absolutely not directly to the people.
    Mr. DeSantis. So we have evidence about what happens when 
you engage with more economic activity with this country. Look, 
if I thought that this would liberate the Cuban people and we 
would have a democratic transformation, man, sign me up. But 
this is going to fortify the regime at a time when it is not 
only weak, when its patron states are weak, but when we can 
actually look at how old these Castro brothers are and say, 
``Man, we could really leverage this for a democratic 
transition at one point.'' And so I think it is really 
troubling.
    Let me ask you this, Dr. Azel. Assistant Secretary Jacobson 
was in front of the full committee recently, and she seemed 
like it is kind of a fait accompli that the State Sponsors of 
Terrorism designation is going to be removed. Is there evidence 
that Cuba is still a state sponsor of terrorism right now?
    Mr. Azel. I think that there is. That is really not my 
field, but I think we see Cuba constantly trying to penetrate 
the United States in every conceivable way. Recalling a comment 
made earlier, at the Institute for Cuban-American Studies, I 
had the opportunity to interview a defector from the Cuban 
Government, and he actually was the person responsible for 
setting cameras in the Nationale Hotel to tape surreptitiously 
American visitors to the hotel.
    So Cuba is deeply engaged in trying to generate 
intelligence and market that intelligence to places like Iran. 
And I think that is profoundly troubling.
    Mr. DeSantis. Oh, absolutely. And this could be Mr. 
Menendez or Mr. Simmons. The Cuban support for the repression 
in Venezuela, can you discuss that? And also how there is 
intelligence that then gets shared through there to other 
terrorist groups throughout the world.
    Mr. Menendez. Could I answer?
    Mr. DeSantis. Sure.
    Mr. Menendez. The Venezuelan situation, clearly there are 
approximately 50,000 to 60,000 Cubans in Venezuela at different 
levels. Some are doctors, some are teachers, many intelligence. 
They run most of the Ministry of the Interior, and they have a 
considerable amount of--let us say that the recommendations 
that they make are considered orders in the Venezuelan 
military.
    I just wanted to respond to Mr. Meeks. He said that he was 
making a logical argument. Actually, the argument you made was 
a non sequitur. It is a non sequitur because U.S. policy is not 
responsible for the conditions of the Cuban people. It is the 
system that the Cuban ruling elite has had for more than 50 
years that is responsible for the condition of the Cuban 
people.
    It is that system which trades with practically every 
country in the world and trades with it in a particular way. 
There is, for example, the Enterprise Management Group called 
GAESA. Are you familiar with that, Mr. Meeks? Do you know who 
the person who runs GAESA is?
    Mr. DeSantis. Well, you can continue addressing him, but it 
is my time that----
    Mr. Menendez. I am sorry.
    Mr. DeSantis [continuing]. So if I could continue, because 
he is not going to be able to answer you because he doesn't 
control the time. But I would like you to continue to engage 
that.
    So let us just assume that maybe he doesn't know, so can 
you educate us about it?
    Mr. Menendez. There is a gentleman by the name of Luis 
Alberto Rodriguez Lopez-Callejo, big name. He runs GAESA. He 
runs the holding company for the military. That gentleman is 
the son-in-law of Raul Castro. It is a family-owned business, 
Mr. Meeks.
    Mr. DeSantis. Let me ask you, Dr. Azel, about Gitmo. That 
has been something--obviously, the United States has had a 
presence at the naval station down there for quite some time. 
There is a lot of politics with this administration about the 
terrorist detainees. But take that aside, just the base as it 
existed, say, pre-September 11, if that were to be returned to 
Cuba, how could they use that to harm U.S. security interests 
in the Western Hemisphere?
    Mr. Azel. I would suspect that the next day that the base 
is returned to Cuba, Cuba would immediately lease it to either 
Russia or China. The base, as we know, is an excellent 
facility, very deep waters outside of Guantanamo where 
submarines can be hidden and very difficult to locate. Cuba 
will generate revenue by leasing that facility to the Russian 
Navy, for example, who would love to have a warm water port in 
the Caribbean.
    Mr. DeSantis. My time is almost up. I just want to say, Mr. 
Chairman, thank you for being so diligent on this. You know, 
the President recently instructed the American people not to 
get on our high horse about jihadists because of the Crusades 
that happened 1,000 years ago. And yet here he is trying to 
establish a relationship with the exact same regime that 50 
years ago wanted to nuke the United States, and Khrushchev is 
the one that had to stop that.
    And I yield back.
    Mr. Duncan. The Chair is trying to be fair. Mr. Castro is 
recognized for 5 minutes.
    Mr. Castro. Thank you, Chairman, and thank----
    Mr. Duncan. Actually, Mr. Castro, Mr. Grayson was on the 
list first. I didn't see Alan over there. So he is recognized 
for 5 minutes. My apologies.
    Mr. Grayson. Thank you. True or false. We have gone from a 
Cuba policy of all stick and no carrot to a Cuba policy of all 
carrot and no stick. Mr. Simmons?
    Mr. Simmons. True.
    Mr. Grayson. Explain why.
    Mr. Simmons. I think we need to look no further than who it 
is we are negotiating with. As the Congresswoman pointed out 
earlier, for the last 5 years we have been negotiating with 
Josefina Vidal who--in 2003 I was part of a DIA-State 
Department-FBI team that threw her out for her espionage 
activities. And now I predict that if we do open--allow an 
Ambassador to be posted to this country, she will be the first 
Cuban Ambassador to the United States.
    And when you allow an expelled intelligence officer who has 
devoted her life to working against the U.S. Congress and the 
U.S. intelligence community and the U.S. business community, 
that shapes the tone for everything Cuba intends to do.
    During the period that Alan Gross was held in Cuba----
    Mr. Grayson. Mr. Simmons, I am sorry. I have just 5 
minutes. Thank you.
    Mr. Menendez.
    Mr. Menendez. True, sir.
    Mr. Grayson. Why?
    Mr. Menendez. Because we don't seem to have a strategy. We 
seem to--we are talking about negotiating, but we are not 
negotiating. It is not clear what our national interests are in 
this situation. It is not clear what the vital national 
security issues are in this situation. Unfortunately, I don't 
think the administration has made it clear why we are even 
doing this.
    Mr. Grayson. Good. Doctor?
    Mr. Azel. Well, absolutely, there is no question in my 
mind. And I outlined in my testimony that Cuba--General Castro 
has outlined his five demands for relationships. We don't know 
what our demands are. What exactly is it that we are asking the 
Cuban Government to do? I cannot find anything of substance.
    Mr. Grayson. What do you think we should ask the Cuban 
Government to do? And how should we make that a quid pro quo?
    Mr. Azel. Well, in an ideal world, we should ask the Cuban 
Government to hold free elections, among other things, to let 
the Cuban people decide how they want to be governed, obviously 
to release all political prisoners, freedom of speech, freedom 
of expression, just the normal human rights that we expect.
    Mr. Grayson. And what do we use as a quid pro quo for that?
    Mr. Azel. Well, right now, I am afraid we have given up our 
bargaining chips without getting anything in return. In a 
situation where they may--emerging Cuba in the future, and I 
don't see any changes with the Castro brothers in power, but 
where they may emerge a reformer down the line, we would have 
had the opportunity to offer lifting economic sanctions, to 
offering assistance of all kinds, if we were to see a genuine 
transition to democracy and free market in Cuba.
    All we have seen is a succession from General--from Fidel 
Castro to Raul Castro, and perhaps another succession in the 
future to Alejandro Castro Espin or somebody else in the Castro 
family.
    Mr. Grayson. Ambassador?
    Mr. Hays. Yes, sir. Well, I would say we still have some 
sticks. Obviously, we have an economic embargo. Cuba is on the 
terrorist list. And the fact that a lot of importance is being 
placed on these issues right now I think is evidence that the 
Cuban Government feels that as a stick and is trying to get it 
removed.
    Again, I would never say that one should never have 
discussions or negotiations. What I say is that let us go into 
this in a way that we can advance our interests, and then also 
the interests of the Cuban people. But definitely we still have 
some sticks at this time.
    Mr. Grayson. Is there any indication that the Obama 
administration is saying something along the lines of ``If you 
do this, we will do that. If you don't do this, we will not do 
that''? Anything resembling actual negotiating? Ambassador?
    Mr. Hays. I am unaware of anything that is worded in quite 
that way.
    Mr. Grayson. Should there be?
    Mr. Hays. I would say yes. Yes, sir.
    Mr. Grayson. And what would be first on your list?
    Mr. Azel. Well, I think the topic of the day seems to be 
the terrorist list. And, again, there are a whole set of issues 
there, everything from Joanne Chesimard to withdrawing the 
agents in Venezuela to cutting ties with Hezbollah and Iran to, 
you know, returning Medicare fraud practitioners. And all of 
those are very specific actions. All of them could be 
undertaken by the Cuban Government at this time. And all of 
them would be indication that they are, in fact, interested in 
having a fruitful discussion with us.
    Mr. Grayson. All right. My time is up. Thank you.
    Mr. Duncan. All right. The Chair will now go to Mr. Yoho 
from Florida.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate the 
opportunity. Gentlemen, I appreciate you being here on this 
timely subject.
    Let us see. Ambassador Hays, number one, I saw you are a 
Gator. I appreciate that. You and I were there about the same 
time, so go Gators.
    Mr. Hays. Very good.
    Mr. Yoho. In your statement, you said Raul Castro has 
characterized Cuba's relation with Iran as excellent, building 
on the foundation Fidel Castro established years ago when he 
declared in Tehran that Iran and Cuba, in cooperation with each 
other, can bring America to its knees.
    Mr. Hays. Yes, sir. That was a statement that got a lot of 
attention at the time, but I think a lot of people have 
forgotten that.
    Mr. Yoho. Do you feel anything has changed since then?
    Mr. Hays. No, sir. Again, you have to look at intentions 
and actions, and there is nothing in their public statements or 
their actions which would lead me to feel that they have come 
to a different opinion.
    Mr. Yoho. Right. And as we grow up, our parents warn us, 
``Don't hang around with that person because they have bad 
habits. If you hang around and associate with them, you are 
going to turn out like them.'' And we look who they hang around 
with.
    Mr. Hays. Correct.
    Mr. Yoho. Russia, China, Iran, Venezuela. And they are all 
against the ideologies that we have. And so I think the proof 
is in the pudding there.
    Mr. Simmons, did it help--actually, if you guys can answer 
this real quickly--did it help and improve the lifestyle of the 
Cuban people? And I think we all said no, right?
    Number two, did it increase their liberties and freedoms in 
accordance with our beliefs and Western ideologies? That would 
be a resounding no?
    Did it strengthen the anti-Cuban Government--anti-American 
Cuban Government run by the Castro brothers with the release of 
the sanctions? Or trying to normalize it.
    And I just want to make a comment, with my colleague, Mr. 
Meeks, saying if something doesn't work for 50 years, you need 
to change it. There are so many things in here, in America, 
that we should look at--the War on poverty we have been 
fighting for 50 years. We put $20 trillion into that, and we 
are going backwards. So just because it doesn't work doesn't 
mean you stop doing those. You improve on those.
    In your opinion, did President Obama's decree make America 
safer and more secure, in our hemisphere and as a nation? Mr. 
Simmons?
    Mr. Simmons. No, it made us weaker and more----
    Mr. Yoho. And I am going to come back to that. Thank you.
    Mr. Menendez?
    Mr. Menendez. No, it has not.
    Mr. Yoho. Dr. Azel?
    Mr. Azel. Absolutely not. It has sent the wrong message to 
the continent, and every would-be dictator now knows that they 
don't have to respect human rights.
    Mr. Hays. No, it has not.
    Mr. Yoho. All right. So one would have to think, what was 
the purpose of this? And, I mean, I was shocked to see that we 
gave up the farm again, like we did with Iran, to have some 
grand negotiation, and we all know the nuclear negotiation with 
Iran is a farce. You know, the whole thing was built around 
preventing Iran to have a nuclear weapon, but it sunsets in 3 
to 5 years, some people say 10 years.
    The time period really doesn't matter, because it is going 
to sunset, and Iran will have nuclear weapons. And so you have 
to think about why would the leader of the world's lone 
superpower--and I go back to 1996 when Bill Clinton said, 
``America can no longer afford to be the world's lone 
superpower.''
    And then I look at the policies over the last 10, 15 years, 
and I kind of feel that. I mean, with what you guys just said, 
we are weakening America's security, we are weakening our 
status in the world. Not that we care about status, but we want 
security, because that is the number one job of this country.
    Do you believe, and this may be a tough question for you to 
answer, that President Obama's decision, was it out of 
ignorance, incompetence, or design? And if you don't want to 
answer that, I understand because I have a thought I want to 
put in there. Nobody?
    Mr. Menendez. Well----
    Mr. Azel. I will----
    Mr. Yoho. Go ahead, Mr. Azel--Dr. Azel.
    Mr. Menendez. Absolutely by design, and I think probably 
prior to the administration. And the reason we are seeing it 
now is because there are 2 years left.
    Mr. Yoho. By design. Dr. Azel?
    Mr. Azel. I would agree with that. It is by design, perhaps 
looking for a legacy or the like. But it was by design.
    Mr. Yoho. A legacy of weakening America.
    Mr. Azel. I suspect that would be the end result of this--
--
    Mr. Yoho. You know what? And there are going to be people 
that will come after me because of these statements. Whether it 
is ignorance, incompetence, or design, I really don't care the 
reason, because none of them are acceptable for America in 
American citizens. We should do everything we can to make this 
country stronger. And if we are going to negotiate with people, 
we should have our--not our standards, but I would think people 
want the liberties and freedoms that we have, and I think this 
is a misstep of this administration, and I am appalled.
    My time has expired. Thank you.
    Mr. Duncan. I thank the gentleman.
    Mr. Castro is recognized for 5 minutes.
    Mr. Castro. Thank you. Thank you, Chairman, and thank you 
to the panelists for sharing your testimony today.
    I think you would agree, since the 1960s, we essentially 
have tried almost everything with Cuba, except for direct 
military action--the embargo, no diplomatic relations, covert 
action, sponsored military action with the Bay of Pigs. And so 
I know there has been a lot of thoughtful debate about the 
President's decision and what it means and what it portends for 
the future.
    And the way I see it, I see the President positioning the 
United States for the day when the Castro brothers no longer 
rule Cuba. Fidel Castro is 88 years old this year. Raul Castro 
is 83 years old. They have already beaten the actuarial tables 
and can't imagine that, you know, they are going to beat Mother 
Nature. I mean, at some point Cuba is going to transition out 
from under their leadership, and I see this action as the 
President positioning the United States to be there to work 
with the new leaders of Cuba when that happens.
    Now, this is normalization of diplomatic relations. As 
everybody has noted, the embargo still exists. There is still, 
you know, this economic component to it that is still in place, 
but--and I know that you guys disagree with most of my 
position, but imagine that we hadn't normalized diplomatic 
relations and, you know, both those brothers are gone within 
the next 6 months. Then, what would have happened with the 
relationship between the United States and Cuba?
    And my worry there is that if you are not in position 
already when that happens, I think you are behind the eight 
ball, because you have got China, who has been much more active 
in Latin America, for example. I was with a group of 
Argentineans last week, an exchange group, and one of them 
asked me, he said--I said I was on the Foreign Affairs 
Committee. He said, ``Are you not concerned with all of the 
activity that China is conducting and all the business that 
China is conducting in Latin America?''
    And so how do you see that? Let us say the President had 
not taken this action and the brothers are gone in 6 months or 
a year. I mean, how would this have been resolved? What would 
be--in the rosiest case scenario, you know, how would this have 
turned out? Anybody. Anybody that wants to address this.
    Mr. Azel. Thank you for your question. Cuba is a military 
regime with a military structure. What we have seen is a 
succession. We have not seen anything close to a transition as 
we saw in Eastern Europe.
    If the Castro brothers are gone, that would probably be the 
opportunity at that moment to advance U.S. national interest. 
If we have already given up all of our negotiating position a 
priori, then we are not going to be able to influence that next 
generation.
    Mr. Castro. Now, we still have the embargo in place, which 
is a huge economic, you know----
    Mr. Azel. It is a little bit of a shell, and we are 
undermining it all the time. So----
    Mr. Castro. And so, for example, and I take your point, you 
know, but for example they are getting a lot of their energy 
from Venezuela, right? I was one of the sponsors of the bill to 
expedite liquefied natural gas exports to other countries. It 
would be wonderful if we could become an energy supplier, once 
the Castros are gone, to Cuba--I think most folks would agree 
with that--so that they are not in the hands of these--some of 
these nations that are run by rogue dictators.
    But it just--it is hard to me to see a benefit in waiting 
until suddenly the country goes into chaos, because now for the 
first time in 60 years or so there is going to be new 
leadership, and then trying to step in in that moment of 
tumult. I just think that is incredibly hard. The way it exists 
now, you have already done one part, which is you are at least 
talking to each other. You know, now I think--I think 
realistically what is going to happen is we are not going to 
lift the embargo until those brothers are gone. I think that is 
what is going to happen.
    Mr. Azel. Well, I hope so. But it is also--the flip side, 
it is hard to see how fortifying a totalitarian regime advances 
democracy. And I don't see how fortifying a regime does that.
    Mr. Castro. Sure.
    Mr. Menendez. Thank you for that question, Mr. Castro, 
which I thought was very thoughtful. It is very nice to see a 
Democrat in this day and age thinking strategically about the 
security of the United States.
    Mr. Castro. There is a few of us here in Congress.
    Mr. Menendez. I know there are.
    Mr. Castro. Believe it or not.
    Mr. Menendez. I know there are. There are those Henry 
Jackson Democrats.
    I think that in my opening statement I mentioned precisely 
that. There is this new generation of Cuban leaders.
    Mr. Castro. Sure.
    Mr. Menendez. What we don't know about them is what they 
really think, because they have been in positions of executing 
policy, but the policies always come from above. And the 
historic leadership is, frankly, dying.
    So in some ways, if you thought about it strategically, it 
would make more sense for us to wait to see if in fact this new 
leadership has a different approach or if----
    Mr. Castro. I am running out of time. And I just think that 
it is tougher when you are not talking to anybody over there, 
you know? Then, all of a sudden, boom, it is all gone and--
anyway.
    Thank you, Chairman. I yield back.
    Mr. Duncan. Okay. The Chair will recognize the gentleman 
from New Jersey, Mr. Smith, for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman, for convening this very 
important hearing. And I apologize for being late--I was the 
speaker at an autism conference--so I will look forward to 
reading your testimonies.
    Let me just say a couple of points. I remember traveling 
with Armando Valladares, and anyone who hasn't read his book, I 
strongly encourage that they do so as well as other books 
written by those who endured torture and incarceration. His 
book Against All Hope, I have read it twice. I have been with 
him. Matter of fact, I was with him at the Human Rights 
Commission when he single-handedly was able to get the U.N. 
Commission to deploy people to go to the prisons. They got 
iron-clad promises that nobody would be retaliated against. 
Everybody was retaliated against, including those who were in 
prison.
    But here is a man who detailed the unspeakable crimes 
committed by the regime, by Castro, and a whole line of other 
people who carried out not just orders, but on their own 
carried out terrible, barbaric acts against people. I mean, he 
described so many tortures, it was almost like what happened in 
the Hanoi Hilton that was commonplace, and still is, against 
these political and democracy activists.
    I, frankly, feel rather than rewarding and enabling a 
dictatorship, because I do believe that the line of 
succession--we have seen this--you know, the great hopes that 
people had falsely about Vietnam--and this seems to be a 
Vietnam model. I have offered, and it has passed three 
Congresses in a row, failed in the Senate, never got a vote--
the Vietnam Human Rights Act--that we should have insisted that 
human rights went first, and then all of the other benefits, 
especially the economic benefits, would follow thereafter. That 
didn't happen.
    Vietnam today is in a race to the bottom with China in 
terms of incarcerating religious believers and democracy 
activists and journalists and bloggers. The same thing has 
happened in Vietnam--I should say in Cuba. This is a lifeline--
as The Washington Post so aptly said, a lifeline to this 
dictatorship.
    It is not about the transition somehow matriculating toward 
democracy. This will almost ensure--hopefully it doesn't but 
could ensure--that the torturers get the baton when all is said 
and done. And that is what I am very worried about, the Vietnam 
model and the China model, and you might want to respond to 
that.
    Frank Calzone is sitting right behind you. Frank Calzone, 
in 2004, was mugged, was hit by so-called diplomats from Cuba 
when he was at the Human Rights Commission. And I have been 
with Frank many times to those Commission meetings. He brought 
forward some horrific, and very damaging to the regime, 
information about human trafficking and child sex trafficking.
    I wrote the Trafficking Victims Protection Act. It is our 
landmark law on combatting trafficking. Cuba is a Tier III 
country, sex tourism, where young children are abused. Who 
benefits? Fidel Castro and his henchmen from the monies that 
are brought in from that.
    It is amazing to me that those issues are not front and 
center. Nancy Pelosi makes a trip down to Cuba. Did she go to 
the prisons? Did she meet with the dissidents who are outside? 
Apparently not. I have tried to go to the prisons for 20 years, 
and I can't even get a visa. If you go there, you meet with 
Fidel, say some nice things and couch your human rights 
concerns in very, very diplomatic speak. You are invited any 
day of the week.
    So very concerned. I am going to make a reapplication to go 
there. I want to go to the prisons the way the ICRC and others 
ought to have been done--been doing for the last 50-plus years. 
So maybe you might want to speak to the trafficking issue, if 
you would. How many political prisoners, democracy activists, 
innocent men and women, has this regime tortured years to date?
    Frankly, I believe the Security Council of the United 
Nations should make a referral for crimes against humanity. We 
talk about Assad and many others and their butchery. What goes 
on in those prisons is equally egregious, and I respectfully 
would ask the administration--all of this talk about--and the 
political niceties, where the horrific details of torture are 
swept under the table, somehow we will get to that later, or in 
some kind of human rights dialogue, like we have with Vietnam.
    Those human rights dialogues are almost without any 
redeeming characters to it, because it--and we do the same 
thing with China, rather than making it centerpiece with our 
relationship with those countries as we should with Vietnam.
    Let me just--so if you could speak to that if you would, 
trafficking, human rights, how many prisoners, and whether or 
not a referral might be--Ambassador Hays.
    Mr. Hays. Yes, sir. I will start off.
    Mr. Smith. Quickly.
    Mr. Hays. You are probably aware there were reported 100 
arrests last weekend of democracy activists, another 40 just a 
couple of days ago. And it is one of these things, if you get 
into a numbers game, and you have someone who is in prison and 
you let them go on Monday and then you rearrest them on 
Tuesday, you could say you have released a prisoner but the 
fact is is that you are still in prison.
    The regime over the years of course has a horrific record. 
All forms of dissent are put down hard. One of the key things I 
think that the Castro regime does better than anybody is by 
controlling all of the economic levers on people's lives they 
are able to control the political levers on their lives.
    If you get out of line, you could lose your job, your 
house, your children's education, not to mention your freedom. 
And this all together forms a very strong way to repress any 
kind of democratic thought.
    I would just note, Mr. Castro, that the Castros' mother I 
believe lived to be 96, so we can't just say that this is 
something that could go away overnight. What we have to be very 
careful to do is not to freeze in place a system which will 
perpetuate these outrageous acts.
    Mr. Smith. Thank you.
    Mr. Duncan. I am going to allow some lenience. We don't 
have anyone else on the minority side. We were going to have a 
second round, so I am going to allow a little more lenience 
here, because members are leaving. But I want to hear this. 
Human rights is a huge issue I think for both sides of the 
aisle.
    Mr. Azel. Well, it certainly is. And although Cuba has 
changed its methodology, in the early days of the regime there 
were long prison sentences. They have now pretty much 
implemented a catch, intimidate, and release type of approach 
to human rights. So the numbers are sometimes hard to get.
    I did want to address briefly Mr. Castro, I think it was. I 
appreciate your strategic concerns. I would encourage you to 
see--there is an interview with Alejandro Castro Espin, Raul 
Castro's son. It is a 30-minute interview, was just done in 
Greece actually. It gives us a glimpse as to what is in Cuba's 
future, and it is really troubling to see that.
    Congresswoman Ros-Lehtinen had asked me earlier about the 
impact in Latin America. And it is important to note that since 
the 1970s our policy toward Latin America has emphasized 
democracy, human rights, and constitutional government. 
Arguably, our policy has not been uniform throughout the world. 
This is true. But until recently defending democratic values 
was indeed our long-established policy in Latin America.
    We have now, I believe, abandoned that by sending a message 
to Latin American leaders that suppressing civil liberties is 
no longer primarily a concern of the United States, and I think 
that will become very dangerous for our national security.
    Mr. Duncan. Okay. I am going to ask that--we are going into 
another round of questions. And I am going to ask you if you 
want to follow back up with a little more information in 
answering some of the other questions, just in the essence of 
time, to try to get through this.
    So I am going to recognize myself for another round of 
questions. And if you want to address your answer, Mr. 
Menendez, to Mr. Smith briefly, I am fine with that.
    But I want to ask all of you, do you think that Cuba has 
given U.S. intelligence to Iran, North Korea, in addition to 
any other countries? And I ask every one of you that.
    Mr. Simmons. Absolutely. And I would also remind the 
committee that we know for a fact that every major U.S. 
military operation since the 1983 Grenada invasion, Cuba has 
warned our enemies in advance with the hope of killing 
Americans.
    Mr. Duncan. Mr. Menendez?
    Mr. Menendez. Unequivocally. The enemy of my enemy is my 
friend.
    Mr. Duncan. Dr. Azel?
    Mr. Azel. Absolutely. There is a gentleman in South Florida 
who was Raul Castro's secretary that actually flew to Iraq and 
gave Saddam Hussein some of our plans for the invasions.
    Mr. Duncan. Ambassador.
    Mr. Hays. Yes, sir. On a daily basis.
    Mr. Duncan. Okay. I want to shift things again here, 
because I am not going to take the whole 5 minutes. But, 
Ambassador Hays, you made a great point in the end of your 
testimony, what Cuba could do in actually doing something as we 
open up these relations.
    Return scores of felons who have fled the U.S. justice that 
are currently residing in Cuba. Remove all intelligence and 
internal security officers from Venezuela and Nicaragua and 
other nations in the hemisphere. Extradition to the U.S. of 
General Ruben Martinez Puente, mig pilots Lorenzo Alberto 
Perez-Perez and Francisco Perez-Perez, return those, extradite 
those to the U.S., so they can face justice.
    Expulsion from Cuba of unrepentant members of FARC, ETA, 
Hezbollah, and other terrorist organizations. Provision of full 
information of armed shipments to North Korea and possibly 
other nations, because we don't know--Panama helped us catch 
that one, but we do know transponders have been cut off if 
ships traveled into Cuban waters.
    Support sanctions against Iran. Stop Russian and Chinese 
intelligence agencies from using facilities such as the Lourdes 
to spy on the United States of America. These are things that 
the Castro regime could do. Great points.
    Mr. Hays. Yes, sir. And Cuban negotiators always will try 
to keep an argument up on a very high and loose level where 
there is no actual requirement for them to do anything. What I 
tried to capture here were some very specific things that could 
be done if in fact they had an intention to reach out to us in 
some meaningful way. But I would be very surprised if any of 
this is on the table at the discussions tomorrow.
    Mr. Duncan. All right. So I will end and just say there is 
a lot of brave men and women in Cuba who have--in face of 
adversity have spoken out against the regime and risked being 
arrested. And a lot of them have been arrested and in and out 
of prison, brave men and women that I want to see supported 
through U.S. policies as we move forward.
    So I am going to yield time to Mr. Castro, 5 minutes.
    Mr. Castro. Sure. Thank you, Chairman.
    And, Doctor, I will take a look at that video that you 
referenced and look through it. I guess for a second imagine 
that we are 20 years down the road, and almost certainly both 
Castro brothers are gone, and whatever scores there are to 
settle between the United States and Cuba have at least--we 
have gone a long way in doing that.
    What role, 20 years from now, do you envision Cuba playing 
with respect to the United States and with respect to Latin 
America? I mean, what is their place in the region and, you 
know, their relationship with the United States?
    Mr. Azel. Well, one of the not-so-well-understood 
situations is that Cuba instills a lot of fear in the Latin 
American countries. And we tend to think that maybe it is 
respect for the Castro regime, but it is mostly fear because 
Cuba has the ability to influence and mobilize Latin American 
leftist movements against democratic movement in Latin America. 
So that is one of the dangers.
    Ideally, we would like to see a transition to democracy and 
free markets, in which case obviously Cuba could be a positive 
influence. But, unfortunately, as things stand right now, what 
we have seen so far is just a succession and we may see another 
succession to another military regime of some sort, but not a 
genuine transition.
    The video I referenced earlier of Alejandro Castro Espin 
makes it very clear that they have already orchestrated a 
succession in Cuba, and it is not a succession toward democracy 
and free markets. It is a succession along the same lines.
    Mr. Castro. Gentlemen, anyone?
    Mr. Simmons. I would just like to add that the transitions 
in national security states have a very problematic history. We 
have seen that in Russia, we saw that in the former Yugoslavia, 
but the point is well made. The initial transition has already 
occurred from Fidel to Raul.
    Now, given that 55 years of national security are built 
into continuing the regime, the government will move forward 
little changed. The only real difference will probably be a 
little bit more pragmatic approach, but they will stick with 
what they have always known. That is their comfort zone.
    Mr. Castro. Sure. Ambassador?
    Mr. Hays. I tend to be optimistic by nature. If you are 
looking 20 years out, I see a free and democratic Cuba where 
the people have the ability to read and speak and assemble as 
they would like to, travel as they would like to, and they will 
be a great and strong friend of this nation.
    You know, one of the things that always bothered me as I 
would meet people on the island, or from the island, is that 
you have--probably we are on our third lost generation now of 
people who just are waiting for something to change in their 
life, to have the ability to set up a small business to do the 
sorts of things that you and I take for granted.
    Mr. Castro. Sure.
    Mr. Hays. And one of the great tragedies is that time is 
passing and these people are getting left behind.
    Last point on that is, you know, I am a Floridian, a Gator, 
and I grew up, you know, Ralph and El Martinez, their parents. 
I used to go over and eat rice and beans at their house, and 
these sorts of things, so I have lived this.
    And one of the things that I am absolutely convinced of is, 
when the moment comes, and when there is a free and independent 
Cuba, there will be an outpouring of support and help from not 
just the Cuban community but the entire American people for 
them, to help them, because it will be a difficult transition. 
I mean, we can't--there is another hearing to get into all of 
the problems that are going to come when you release that 
pressure and things start popping up. But I am optimistic.
    Mr. Castro. So what is so remarkable, you know, so, for 
example, in 2010 I was in China for the World Expo. And, you 
know, in China you can't use Facebook, for example, but they 
allow internet access. In Cuba, they have essentially been 
denied even--a lot of people--internet access. I mean, this is 
a land that has been--has stood still in time essentially, if 
you look at the vehicles on the street, for example.
    And so I think also, the President's action, part of it is 
a bet that American culture and notions of democracy will 
ultimately hasten change. You know, and only history will prove 
whether that was true or not. But I think that is a sincere 
hope.
    And so I hope you are right, Ambassador, that 20 years from 
now that is where Cuba is, and they are a good, you know, 
neighbor of the United States and trading partner with the 
United States, because it is a country with such incredible 
beauty and incredible potential.
    Mr. Duncan. The gentleman's time has expired.
    Ms. Ros-Lehtinen from Florida for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and I 
wanted to give the panelists an opportunity to answer my long-
winded question. Maybe we will ask with--we will start with 
Ambassador Hays.
    Mr. Hays. Okay. Yes, ma'am. Thank you. You had asked about 
an earlier experience in my life when I did resign from the 
position of Coordinator of Cuban Affairs. At that time, I was, 
among other things, negotiating with the Cuban Government over 
migration issues and related issues.
    There also were, of course, secret negotiations going on at 
this time, which led to a decision. And, again, this is in the 
wake of the Rafter Crisis in Guantanamo, and what have you, to 
where we agreed to the forcible repatriation of Cubans who were 
trying to flee the dictatorship, that we would take people back 
in chains, back to Cuba, without due process.
    And, furthermore, we committed--we, the United States, 
committed that we would guarantee that individuals who were 
returned to Cuba would not be subject to penalty. This was a 
line that was written into their initial document. Three weeks 
later, that line had disappeared, and in subsequent documents 
you do not see the guarantee that the United States made to 
protect these people.
    As the Coordinator of Cuban Affairs, I would have been 
responsible for enforcing this action, which I did not feel was 
in the best interest of the United States or certainly not the 
people trying to flee the horrible situation that they were in. 
I did resign from my position. I should note I did not resign 
from the Foreign Service and was subsequently nominated by 
President Clinton to my Ambassadorship. Warren Christopher, a 
man who will always be close to my heart, was very supportive 
at this time.
    But if I could very quickly link it back to my earlier 
comments is that part of this is when you do have secret 
negotiations, when you don't have outside, if you will, or even 
different voices that can look at something and say whether it 
makes sense or not, I think we put ourselves at risk. And that 
was the case then; I think it is the case now.
    Ms. Ros-Lehtinen. And if I might add, and what has changed 
since you left for a very principled stand--and I congratulate 
you for that--is that there has been an uptick in the number of 
Cubans who have left the worker's paradise, and they have come 
to my shores right there in my Congressional District. And they 
are willing to risk the thing they have left, their very lives, 
to come to this country, even though they have been fed 
propaganda for more than 50 years that says we are the enemy, 
and that all these countries, they love you, but the United 
States is the enemy. But where do they want to come when they 
have the opportunity? Right here.
    And many individuals say that we will still continue with 
the Cuban Adjustment Act and the Wet Foot, Dry Foot, and it is 
really--would be hard to say how that would stay in place when 
we have diplomatic relations. And yet this special status is 
bestowed only to Cubans who might--will fear persecution were 
they to be sent back, and how could that be true with all these 
arrangements that we now have in place.
    And what is true is that since these secret negotiations 
have taken place, and now 19 months or so, 20 months, the 
number of arrests in Cuba have also skyrocketed. There have 
been 300 arrests in Cuba in the past month, and obviously the 
message to the Castro regime is we will look the other way, 
because that is an inconvenient truth for us. So----
    Mr. Hays. If I could just mention----
    Ms. Ros-Lehtinen. Yes.
    Mr. Hays [continuing]. On that again is we would hope our 
Latin American allies would also speak out against these 
arrests, but we--to my knowledge, I have not seen that.
    Ms. Ros-Lehtinen. The silence is deafening. And it is no 
surprise that Nicolas Maduro, the thug of Venezuela, went to 
Cuba and then the next day these violent attacks on peaceful 
protesters broke out, and a 14-year-old Venezuelan teenager was 
shot in the head as he was attempting to go to school, because 
now legally the police thugs have been given carte blanche that 
they can fire on peaceful demonstrators and can mortally wound 
them.
    So that is the reward that they get. He gets his marching 
orders from Cuba and goes to kill his own people in Venezuela.
    Thank you so much, Mr. Chairman, for this hearing. Thank 
you.
    Mr. Duncan. Thank you.
    Mr. Yoho.
    Mr. Yoho. Thank you, again, Mr. Chairman. I find this a 
very enlightening discussion.
    Mr. Menendez, you stated that there is roughly 40,000 to 
50,000 Cubans in Venezuela. Does that include military 
personnel, i.e. soldiers? Or is that----
    Mr. Menendez. Absolutely.
    Mr. Yoho. All right. So that number is--because I have 
heard numbers up to 100,000. And when they were having the 
riots in the streets, I think it was last year, we heard of 
Cuban soldiers on the street shooting into the crowds. Is that 
factual?
    Mr. Menendez. There is I believe a special forces team 
called Avispas Negras, Black Wasps.
    Mr. Yoho. Right.
    Mr. Menendez. And I believe they were involved in some of 
it. I don't have any actual data, but I do believe that many 
people have said this, that they were involved.
    Mr. Yoho. All right. And then, the way I understand it is 
President Maduro is surrounded by Cuban Secret Service. Is that 
correct? Mr. Simmons----
    Mr. Menendez. Yes.
    Mr. Yoho [continuing]. You are nodding.
    Mr. Simmons. Yes. Ever since the Chavez regime, the 
security of the President and key leadership decisions are made 
in conjunction with Havana.
    Mr. Yoho. So I see the Venezuelan state as an extension of 
the Cuban state that has become stronger in their nature and 
are working through Venezuela. And we already know of Hezbollah 
coming through Venezuela, getting the Venezuelan passports, 
going to Canada. I mean, we know that is factual.
    Let us see. What do you think the misdirected foreign 
policy with Cuba from President Obama says to other countries 
that we have sanctions with? And Iran, with the nuclear 
negotiations, Russia dealing with Ukraine, China and the South 
China Sea and what they are doing in there, how does that 
affect all of our other relationships with those countries? 
Just quickly, all four of you, if you can.
    Mr. Simmons. Well, again, going back to my earlier point 
about the Cuban penetration of the National Reconnaissance 
Office, the Cuban leadership takes an intelligence-centric view 
of the world. And so their takeaway on this penetration was, 
after their agent having been caught, we immediately entered 
into secret negotiations, so they see this as a reward. And it 
is hard for them to separate the two. I would suggest that they 
won't separate the two.
    Mr. Yoho. Well, and then you get somebody like Raul Castro, 
giving the demands when the sanctions can't--well, we will take 
the sanctions if you do this and this, and it just--it is 
ludicrous.
    Mr. Menendez?
    Mr. Menendez. I think the negotiations, in and of 
themselves, are a victory, whether they get anything or not. I 
think it is just being able to sit down with the United States 
and say, ``Look, we are legitimate.'' And that is the message 
that is being sent throughout Latin America, that----
    Mr. Yoho. Well, and then look at Iran. I mean, in that 
negotiation, they are saying, ``Well, heck, you guys gave up 
the farm here. We are just going to hold those. We will just be 
silent.''
    Mr. Menendez. We are 0 for two.
    Mr. Yoho. Dr. Azel?
    Mr. Azel. One terrible message that the new policy has just 
sent to Latin America, and the rest of the world, is that 
taking American hostages can be very rewarding as it has been 
for Cuba.
    Mr. Yoho. I agree. Ambassador Hays, I have got another 
question for you, if you don't mind. You say you see a 
democratic Cuba in the future. What has to happen for that--in 
order for that to occur? I mean, what are the dynamics that you 
see transpiring?
    Mr. Hays. Well, I mean, there are a lot of possibilities. 
Not all of them are good. There could be chaos in the wake of a 
collapse of the regime. Again, because Cuba for so long has 
been at a point where there is basically the Castro brothers, 
and the two of them are one individual, when they are gone, 
obviously you are going to have different groups that have 
different aspirations.
    Unfortunately, at the moment, all of them tend to be the 
senior military command, and I think that is what is most 
likely to follow from that. But Cuba also has a very rich 
history of dissent of people who are prepared to stand up and 
fight for their freedom and their neighbors' freedom. That is 
who I think we should be supporting. That is who I would put my 
bets on----
    Mr. Yoho. Let me add this to----
    Mr. Hays [continuing]. To do this.
    Mr. Yoho. Do you see that happening? All four of you, will 
that happen if America continues to decline in strength and we 
have a foreign policy that confuses not just our allies but the 
people that aren't real friendly to us. Do you see that 
happening in Cuba?
    Mr. Hays. I think the United States--the United States is 
the primary force in the world pushing for democracy and human 
rights. And if we lose that position, I don't think there is 
anyone that can take our place or would take our place.
    Mr. Yoho. Dr. Azel?
    Mr. Azel. I think there is a misunderstanding in our 
foreign policy that diplomatic engagements and commercial 
relationships leads inexorably to political reforms. Our 
engagement with China and with Vietnam for nearly 40 years now 
has shown that that is demonstrably false.
    Mr. Yoho. I am out of time, and I appreciate it, Mr. 
Chairman. Thank you.
    Mr. Duncan. Okay. I thank the gentleman from Florida.
    And we will go to the last Member of Congress, Mr. Smith, 
for 5 minutes.
    Mr. Smith. Thank you very, Mr. Chairman.
    You know, Ambassador Hays, you may recall I held a series 
of hearings on the Castro-Clinton accords, and I appreciate the 
very principled stand you took to express your profound 
displeasure, especially when the benign treatment when a 
forcible repatriation was about to occur via a U.S. Coast Guard 
cutter that--and we know--and I remember asking, how do we know 
that once that person is returned that they are not beaten to a 
pulp and tortured and sent to--you know, to prison for a very 
long time. And there was never a good answer.
    So thank you for your leadership on that. That accord 
between Bill Clinton and Castro is infamous--infamous. We 
enable dictatorship and people fleeing dictatorship, and we 
sent them back, in violation of refoulement and every other 
principle of protecting true refugees. So thank you for your 
principled stand.
    You know, several delegations are likely to make their way, 
and I don't know if I will ever get a visa. What would be your 
thoughts--you know, when Ronald Reagan and Shultz went to the 
Soviet Union--and that was at the--you know, the Cold War was 
obviously fever pitched, nuclear weapons faced at both nations, 
really throughout the world, but the Soviet Union and the U.S., 
and yet we made Soviet Jews and human rights the centerpiece of 
our policy.
    Whenever Shultz and others--Secretary Shultz went there, 
and I went to the Soviet Union many times, and the East Bloc 
countries, they always met very publicly with the dissidents. 
Please, your thoughts on delegations asking to visit the 
prisoners, one; and those who are dissidents out of prison in a 
very public way--I mean, we had Artunez testify at my hearing 
just a few weeks ago. What a courageous man, 17 years in 
prison, and he talked about the very special brand of racism 
practiced by the Castro brothers against Afro-Cubans.
    Dr. Bicet, who we also had appear via a phone hookup, after 
spending all of those years in prison, he talked about that 
very special Afro-Cuban discrimination by the regime, which is 
in a league of its own in terms of its insidious nature. So if 
you could speak to that as well.
    The lessons learned, Bill Clinton, in May 26, 1994, 
shelved--ripped up his own Executive Order linking human rights 
with trade. I can tell you beyond any--I think I have held 49 
hearings on human rights abuses in China. They don't have a 
free internet. It is absolutely controlled by the government. 
The Great Chinese Firewall is intact and, regrettably, catching 
dissidents and Falun Gong and everybody else every day of the 
week. It is like a portal into the individual's home or if they 
go to a cafe and sign in.
    Why didn't we learn the lesson? I mentioned Vietnam before, 
but China as well. China is one of the most egregious violators 
of human rights in the entire world. They have--the Laogai is 
filled to overflowing with political prisoners, labor 
activists, Falun Gong, religious--Catholic Christian, you name 
it. They are all suffering if they speak out against the 
regime, and now they are exporting their brand of dictatorship 
to Africa, or trying to, and elsewhere around the world.
    We know for a fact the Europeans, the Canadians, traded to 
their heart's content with Cuba. There was no amelioration of 
the human rights abuses because of that. If anything, they got 
hard currency to continue on. Again, I thought The Washington 
Post editorial just the other day about the lifeline that has 
been extended to the Castro brothers and those who follow the 
dictatorship was very much on point. So if you could speak to 
that as well----
    Mr. Hays. Yes.
    Mr. Smith [continuing]. And----
    Mr. Hays. Yes, sir.
    Mr. Smith. Please.
    Mr. Hays. You know, I remember the story that this Russian 
dissident, Sharansky, tells about when he was in the Gulag, and 
his jailers came to him and laughed because President Reagan 
had called the Soviet Union the ``evil empire'' and they were 
making fun of this. But the message that Sharansky and the 
other political prisoners took is that there was someone out 
there who actually cared about them.
    I cannot overstress the importance for someone who is a 
political prisoner to know that someone is aware of their fate. 
There is nothing worse than being felt that you have been 
abandoned and forgotten. So I would certainly encourage every 
delegation that goes to Cuba to insist on seeing not just the 
dissidents but also perhaps getting into the prison.
    And, very quickly, I am often approached by people, you 
know, ``I am going to Cuba, and I am''--I say, ``Look, if you 
are going to go to Cuba, here is what I would like you to do. I 
would like you to carry a box of Spanish language books with 
you. And when you get to Cuba, just pass them out on the street 
or give them to an independent library along the way, and you 
will have done some good.''
    But if you want the true Cuban experience, tell the Customs 
officer on your arrival that that is what you intend to do. I 
have yet to have anybody come back and tell me they have 
successfully done this.
    Mr. Smith. Okay.
    Mr. Azel. So we tend to look at foreign policy through the 
lenses of our own cultural experience, and we tend to think as 
Americans that if we can just sit down and talk we can solve 
all the problems. We fail to realize that when dealing with 
totalitarian regimes like China and Cuba, that is not the case.
    Mr. Menendez. I think what Ambassador Hays just said, I 
want to just add to it. And I would recommend to you that the 
entire committee make a serious demand, and that demand is that 
the International Committee of the Red Cross be allowed into 
Cuban prisons. And I think that is something that could be done 
on a bipartisan basis and would seriously, seriously aid those 
inside the prisons.
    Mr. Simmons. And I would agree and simply add that any time 
you are dealing with a police state, when you are silent on 
human rights, that is all the applause they need.
    Mr. Duncan. The gentleman's time has expired.
    I want to--first off, I want to thank Mr. Castro for 
filling in for Mr. Sires as the ranking member, and welcome to 
that chair. I also want to thank Albio Sires for his leadership 
on the Cuban issue from the minority side. He has been a 
valuable source of information for me personally, and I hated 
he had to leave.
    I also want to thank T&I Committee for allowing us to use 
the committee room today, and Chairman Shuster, so that is on 
the record.
    And pursuant to Committee Rule 7, members of the 
subcommittee are permitted to submit written statements for the 
record, and we are going to hold that open for 5 business days 
for any statements, questions, or extraneous materials to be 
submitted for the record and subject to the length limitation 
in the rules.
    I want to thank the witnesses and the panel today, because 
you provided some valuable information. It was a great exchange 
on both sides of the aisle here, and we are going to continue 
delving into this Cuba policy and what it means to the Cuban 
people and what it could possibly mean to relations and 
national security for the United States, which was the focus of 
our hearing today.
    So I want to thank the members for participating. And 
without any further business, we will stand adjourned.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

                                 [all]
</pre></body></html>
